<html>
<title> - U.S. POLICY IN YEMEN</title>
<body><pre>[Senate Hearing 112-364]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-364
 
                          U.S. POLICY IN YEMEN 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-916 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



























                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

BARBARA BOXER, California            JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         MIKE LEE, Utah
CHRISTOPHER A. COONS, Delaware       MARCO RUBIO, Florida
TOM UDALL, New Mexico                JOHNNY ISAKSON, Georgia

                              (ii)        

  





























                            C O N T E N T S

                              ----------                              
                                                                   Page

Benjamin, Hon. Daniel, Coordinator for Counterterrorism, U.S. 
  Department of State, Washington, DC............................     4
    Prepared joint statement with Ambassador Janet A. Sanderson..     5
    Responses to questions submitted for the record by Senator 
      John F. Kerry..............................................    46
Boucek, Dr. Christopher, associate, Carnegie Middle East Program, 
  Carnegie Endowment for International Peace, Washington, DC.....    28
    Prepared statement...........................................    30
Capozzola, Christa, Deputy Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development, Washington, DC..................     9
    Prepared statement...........................................    10
    Responses to questions submitted for the record by Senator 
      John F. Kerry..............................................    43
    Responses to questions submitted for the record by Senator 
      Robert P. Casey, Jr........................................    47
Casey, Hon. Robert P., U.S. Senator from Pennsylvania, opening 
  statement......................................................     1
Green, Daniel R., Soref Fellow, Washington Institute on Near East 
  Policy, Washington, DC.........................................    25
    Prepared statement...........................................    27
Risch, Hon. James E., U.S. Senator from Idaho, opening statement.     3
Sanderson, Hon. Janet, Deputy Assistant Secretary of State for 
  Near Eastern Affairs, U.S. Department of State, Washington, DC.    12
    Prepared joint statement with Hon. Daniel Benjamin...........     5
    Responses to questions submitted for the record by Senator 
      John F. Kerry..............................................    45
    Responses to questions submitted for the record by Senator 
      James E. Risch.............................................    47

                                 (iii)

  


                          U.S. POLICY IN YEMEN

                              ----------                              


                         TUESDAY, JULY 19, 2011

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey (chairman of the subcommittee) presiding.
    Present: Senators Casey, Coons, Udall, Risch, and Corker.

           OPENING STATEMENT OF HON. ROBERT P. CASEY,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. The hearing will come to order.
    I will start with an opening statement, and then we'll of 
course introduce our witnesses, and then we may have other 
statements as well.
    But I want to thank everyone for being here. We're getting 
started just at the right time. And we're here today for a very 
important purpose.
    We're here today to discuss the complex set of challenges 
facing United States policy in Yemen, and that examination of 
policy comes amid 5 months of popular protests and political 
unrest.
    During this historic period of sweeping change in countries 
like Egypt, Tunisia, and Syria, Yemen often gets overlooked. 
However, as a result of the power vacuum caused by President 
Saleh's departure to Saudi Arabia in June, there are serious 
concerns over the government's ability to prevent al-Qaeda from 
gaining a foothold, or I should say a stronghold, in the 
country, as well as broader concerns about the growing 
humanitarian and economic crises that are plaguing Yemen today.
    Al-Qaeda's presence in Yemen is not new. We know that. But 
it has grown increasingly worrisome in the past several years.
    Al-Qaeda in the Arabian Peninsula, as we know by the 
acronym AQAP, has carried out multiple attacks against the 
people of Yemen and also against Americans as well as other 
countries and her citizens.
    We all remember the foiled Christmas Day so-called 
underwear bomber attack in 2009, which revealed AQAP's strategy 
of direct attacks on the U.S. homeland. In October of last 
year, Yemeni terrorists again targeted the United States 
homeland with UPS packages containing explosives. One of the 
packages was bound for the Philadelphia International Airport 
in my home State of Pennsylvania.
    Given the direct threat that AQAP poses to United States 
national security interests, and taking into account 
significant gains made in United States operations against al-
Qaeda in Afghanistan and Pakistan over the past year, 
counterterrorism efforts in Yemen must be a central focus of 
our national security strategy.
    That said, our counterterrorism concerns are closely 
intertwined with political, economic, and developmental 
challenges as well. And those challenges are those that the 
United States must work to address as part of a holistic 
approach to this challenge.
    First of all, I'll just outline three priorities. First, we 
need a better understanding of the political opposition and 
prospects for democratic reform. Acting President Hadi, the 
Vice President in Yemen, has only a small power base, and the 
opposition appears fractured between the so-called Joint 
Meeting Parties, the JMP, and other individuals, such as Ali 
Muhsin, the former commander of the First Armored Division, and 
Sheikh al-Ahmar, leader of the powerful al-Ahmar family.
    Over the weekend, elements of the opposition announced the 
formation of a shadow government, though the composition and 
support for the group remains unclear. It is clear, however, 
that the transition process will take place sooner or later.
    The President has committed to eventually stepping down, 
which will result in new leadership for Yemen, the first time 
in 33 years. But the United States needs to be prepared for 
this post-Saleh government, whatever that might be, and we 
don't know the contours of that yet.
    Second priority of the three that I'll mention in this 
statement, we must be prepared to address the rapidly 
deteriorating humanitarian crisis. The violence between pro-
Saleh forces and opposition demonstrators has only exacerbated 
already chronically poor conditions in the country itself, 
where the average citizen survives on less than $2 a day.
    A third of Yemen's population is undernourished and the 
country is facing a severe water shortage. It also faces, as 
well, a food and fuel crisis at the same time.
    Education indicators are among the lowest in the Middle 
East. Only 32 percent--32 percent--of girls are attending 
secondary school.
    The United States needs to send a message of solidarity 
with the people of Yemen, and part of that message we need to 
send is that we're concerned about their well-being and their 
prospects for the future. While the United States will not be 
able to solve the daunting development and economic challenges 
facing Yemen, we can help mitigate their impact through our 
development and humanitarian assistance.
    Third and final point, the United States and our 
international partners should develop a long-term strategy on 
conflict resolution in Yemen. In a country rife with tribal 
conflict, most recently and notably the Houthi rebellion in the 
north and secessionist movements in the south, al-Qaeda has 
found a safe haven.
    This is a clear example of how our counterterrorism 
strategy must have a civilian component. USAID has done good 
work through community outreach programs aimed at fighting 
extremism among young people, but this is just the tip of the 
iceberg. Saudi Arabia has a unique role to play, given its 
strong ties to the Yemeni people and security interests.
    We must think strategically about how best to leverage our 
collective resources to achieve a sustainable development 
policy.
    As we turn to our witnesses, it's important to emphasize 
that Yemen cannot be viewed through a single lens. In a country 
where vast political, security, humanitarian, and development 
challenges continually converge, the United States must 
endeavor to formulate a coordinated short-term and a long-term 
policy based on our core national security interests.
    So I commend our diplomats, and I want to commend, in 
particular, Gary Feierstein and Deputy Chief of Mission 
Elizabeth Richard, who work continuously in an increasingly 
difficult environment.
    I look forward to hearing more about how the United States 
can better examine and address the threats posed to our 
national security and, ultimately, to better meet the 
legitimate needs of the Yemeni people.
    And now I turn to our ranking member, Senator Risch.

           OPENING STATEMENT OF HON. JAMES E. RISCH,
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Chairman Casey, thank you so much for 
scheduling this hearing. It's really appropriate that we do 
focus on Yemen at this particular time.
    With the Arab Spring and the many changes that are coming 
to the Middle East, it's really important that we do focus on 
Yemen, which is becoming increasingly more important to United 
States policy in the Middle East.
    As we all know, Yemen lies in the strategic crossroads 
between the Arabian Peninsula and the Horn of Africa. It has 
seen a flow of extremism and terrorists cross back and forth. 
And recent victories of al-Qaeda in the Arabian Peninsula and 
in Southern Yemen should be troubling for United States 
policymakers.
    It seems the Department of Defense is pursuing 
counterterrorism policies which indeed have demonstrated some 
success, but many State Department resources have been focused 
very much on the capital, and the outlying areas of Yemen need 
more attention.
    We need a more comprehensive strategy that coordinates the 
activities of the State Department and the Department of 
Defense.
    While there are immediate challenges we must confront in 
Yemen, we must also make sure we are not making longer term 
issues in the country worse. The dangers of Yemen breaking 
apart and becoming even more of a lawless landscape will have 
serious repercussions on the long-term interests of the United 
States in the region.
    Another safe haven for pirates, the potential for attacks 
like the USS Cole, and other threats endanger U.S. interests 
and personnel in the region.
    I hope we can quickly develop a broader strategy, because 
the consequences for the region could be severe if we don't.
    I welcome this hearing today in order to hear from our 
witnesses and their thoughts on solutions and moving forward in 
the region.
    Thank you very much, Mr. Chairman.
    Senator Casey. Thank you, Senator Risch.
    I'll introduce our witnesses, and we'll go right to their 
testimony.
    In our first panel--and I'll limit the introduction to our 
first panel, and we'll do the second panel when we reach that 
point--we'll hear from the Honorable Janet Sanderson, Deputy 
Assistant Secretary of State for Near Eastern Affairs; the 
Honorable Daniel Benjamin, Coordinator for Counterterrorism at 
the Department of State; and Ms. Christa Capozzola, Deputy 
Assistant Administrator in the Bureau for Democracy, Conflict 
and Humanitarian Assistance at USAID.
    And for purposes of movement from left to right, Ambassador 
Benjamin, I think we'll start with you.

      STATEMENT OF HON. DANIEL BENJAMIN, COORDINATOR FOR 
   COUNTERTERRORISM, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Benjamin. Chairman Casey, Ranking Member Risch, 
thank you very much for inviting me to appear before you today.
    As you'll hear in a few moments from my colleague, 
Ambassador Sanderson, the situation in Yemen in terms of 
politics and economics is quite tenuous.
    The presence of al-Qaeda in the Arabian Peninsula, AQAP, 
means that this volatile situation has a direct bearing on our 
national security. As we've seen with both the 2009 Christmas 
Day bomb attempt and the cargo bomb attempts 1 year later in 
fall of 2010, AQAP has developed not just the desire but also 
the capability to launch strikes against the United States at 
home.
    As a result of the last several months of political unrest, 
the Government of Yemen's efforts against AQAP have suffered a 
setback. When it called most of its security forces back from 
the provinces, including its counterterrorism units, to Sanaa, 
where most of them remain today, AQAP took advantage of the 
power vacuum to expand its operational territory, particularly 
in the south, which historically has resisted rule from the 
north and the capital in Sanaa.
    AQAP has made territorial gains in Abyan governance, 
specifically attacking the capital city of Zinjibar. This 
potentially threatens the port city of Aden and gives AQAP 
access to international sea-lanes.
    Our two-pronged strategy recognizes that Yemen's long-term 
stability requires addressing the factors that lead to 
instability by promoting good governance, the rule of law, and 
human and economic development. However, in order to promote 
those long-term goals, we must help the government confront the 
immediate security threat represented by al-Qaeda.
    Our counterterrorism strategy strives to build the 
capabilities of Yemen's security forces to effectively combat 
AQAP and other terrorist elements, and also to reduce the 
appeal of AQAP to potential recruits.
    In 2010, the United States provided an estimated $179.8 
million in training and assistance to Yemen's key 
counterterrorism and related law enforcement units. 
Specifically, through 1206 section funding, DOD has helped 
build the capacity of Yemen's military forces to conduct 
counterterrorism operations with programs that provide training 
and equipment to Yemen special operation forces, Yemen coast 
guard, border security forces, and the Yemeni air force.
    However, no FY 2011 1206 funding has been programmed for 
Yemen, unfortunately, because of the security situation and 
political unrest.
    Antiterrorism assistance training is provided to the 
Ministry of Interior's Criminal Investigative Division and to 
the Central Security Organization, and it focuses on building 
investigative capabilities of the police and the security 
forces to detect, disrupt, and respond to terrorist threats.
    ATA program objectives also include improving cross-
ministerial coordination, strengthening crisis response, and 
developing the ability to detect dangerous devices upon entry 
at land, air, and maritime borders. However, again, due to the 
security situation, ATA training was suspended in February, and 
we plan to resume it when the situation improves.
    We have also provided training and equipment for improving 
biometric databases and aviation security, and assistance to 
build capacity of the criminal justice sector.
    In addition to security assistance, we are gearing up some 
important efforts in the area of countering violent extremism. 
With the Department of Defense, we have a project to assess 
radicalization at the provincial level, to develop tailored 
approaches to counter violent extremism, including viable 
alternatives for at-risk youth, encouraging local credible 
voices to challenge the AQAP message.
    To develop a better understanding of AQAP messaging and 
audiences, the State Department's Counterterrorism Strategic 
Communications Center is commissioning research and analysis 
projects that will outline AQAP narratives, including how these 
narratives align with or conflict with specific audiences.
    Despite the challenge posed by the political situation, our 
counterterrorism cooperation continues, as we share a common 
interest with the Yemeni Government of fighting terrorism and 
defeating AQAP. It is important to underscore that our 
counterterrorism partnership goes beyond one individual. And 
based on our conversations with a broad cross-section of 
Yemenis, we are confident that it will continue once a 
political resolution is achieved.
    I want to thank you very much, again, for inviting me to 
testify before this committee on this very important subject, 
and I look forward to your questions.
    [The joint prepared statement of Ambassador Benjamin and 
Ambassador Sanderson follows:]

       Prepared Joint Statement of Ambassador Daniel Benjamin and
                     Ambassador Janet A. Sanderson

    Chairman Casey, Ranking Member Risch, distinguished members of the 
committee, thank you for inviting us to appear before you today. 
Representing our colleagues in the Bureau of Near Eastern Affairs and 
the Office of the Coordinator for Counter Terrorism, we appreciate the 
committee's abiding interest in and attention to our Nation's 
priorities and goals in the region. We are pleased to present the 
committee with an overview of the administration's policy and our 
relationship with Yemen.
    Civil unrest in the Middle East and North Africa has focused 
attention closely on the broad issue of governance across the region, 
particularly in Yemen. Yemen is confronting myriad political, economic, 
social, security, and governance challenges and the current political 
crisis has exacerbated systemic issues such as unemployment, lack of 
opportunities for a large youth bulge and rapidly growing population, 
unequal development, political marginalization, widespread corruption, 
weak state institutions, declining government revenues, growing natural 
resource scarcity, and terrorism. Consistent with United States 
national interests, we have been working to help Yemen address these 
challenges.
    The 2009 Christmas Day bomb attempt and cargo bomb attempts in fall 
2010 made us all acutely aware of the threats posed by ungoverned and 
poorly governed spaces in Yemen and around the world. But this is not a 
new security concern.
Al-Qaeda has had a presence in Yemen since at least December 1992, when 
it attempted to bomb a hotel in Aden where American military personnel 
were staying. Today al-Qaeda in the Arabian Peninsula (AQAP) has 
developed not just the desire but also the capability to launch strikes 
against United States territory. More than ever, AQAP demonstrates that 
its terrorist violence is directed both inside and outside Yemen, and 
the rise of the self-styled AQAP presents a direct threat to the 
security and well-being of the people of Yemen, the broader Arabian 
Peninsula, and to the United States, its friends, and allies. A key 
part of our work to ``disrupt, dismantle, and defeat'' al-Qaeda 
involves addressing the problem of terrorism in Yemen from a 
comprehensive, long-term perspective, including a commitment by the 
broader international community and a bilateral partnership with the 
United States to build capacity.
                          u.s. policy in yemen
    We recognize that terrorists have taken advantage of a lack of 
security in various regions of Yemen as a result of the political 
uncertainty and internal conflicts. We also know that Yemen faces many 
resource challenges that negatively impact good governance, the 
delivery of services, and the effectiveness of the security 
architecture that is needed to effectively combat terrorism. For that 
reason the United States has adopted a two-pronged strategy for Yemen--
helping the government confront the immediate security threat 
represented by al-Qaeda, and mitigating the serious political, 
economic, and governance issues that the country faces over the long 
term--the drivers of instability.
                        recent political unrest
    Peaceful civic engagement in national affairs is key to the 
democratic process. As is true in every country, it is ultimately for 
the people of Yemen to decide who governs. While most protests in Yemen 
have been peaceful since they began in January of this year, there have 
been violent clashes between pro- and anti-government demonstrators and 
between protestors and government security forces and irregular 
elements using force to break up demonstrations. These have resulted in 
many injuries and deaths. We are particularly concerned by government 
use of force against demonstrators and incidents in which one group or 
another appears to have provoked clashes. The United States has 
strongly urged and publicly called for the Yemeni Government to 
investigate and prosecute all acts of violence against protestors. We 
have continuously called for all Yemenis, including the government, to 
refrain from violence and exercise restraint, and we continue to 
express our support for the right of all Yemenis, like people 
everywhere, to peacefully demonstrate.
    The United States continues its regular engagement with the 
government, including both President Ali Abdullah Saleh (who is 
currently recovering in Saudi Arabia from injuries following a June 3 
attack on his compound) and the Acting President, Vice President Abdo 
Rabbu Mansour al-Hadi. Our Embassy also meets with leaders of the 
opposition parties and civil society activists on the range of issues 
of interest to the United States, including political reform. We 
support efforts of the Yemeni Government, the opposition parties, and 
civil society to come together through dialogue to peacefully resolve 
political differences. We strongly support the Gulf Cooperation Council 
(GCC) initiative which would lead to a peaceful and orderly political 
transition. While there have been many proposals to resolve political 
differences, only the GCC initiative was put into writing and signed by 
both the ruling General People's Congress Party and the opposition 
coalition Joint Meeting Parties. Furthermore, the GCC initiative calls 
for a transition via democratic elections, which we believe are 
critical to long-term stability and government accountability. 
President Saleh has repeatedly said he will sign the agreement, but has 
also repeatedly refused to sign it. We continue to call on him to sign 
the initiative as the last remaining signatory so that a transition of 
power can begin immediately.
                 counterterrorism and security efforts
    Our political efforts are just one element of our work in Yemen. We 
are implementing a multifaceted strategy designed to address the 
terrorist activity that threatens Yemen and the United States, as well 
as the causes underlying Yemen's instability. This strategy marshals 
U.S. resources to improve Yemen's macroeconomic stability, increase the 
sustainable and equitable delivery of services, and improve local 
governance and civic participation over the long term while addressing 
immediate political and security concerns in the short term. We are not 
alone in this effort. Yemen's neighbors, European countries and 
multilateral organizations have come together to assist Yemen in 
dealing with its multiple challenges in the political, economic, and 
security areas.
    Our counterterrorism strategy focuses on building the capabilities 
of Yemen's security forces to counter AQAP effectively. AQAP has 
developed not just the desire but also the capability to launch strikes 
against the United States as demonstrated by the 2009 Christmas Day 
bomb attempt and the cargo package bomb attempts of October 2010. Our 
strategic approach to terrorism and the serious political, economic, 
and governance issues that Yemen faces must be comprehensive and 
sustained, taking into account a wide range of political, cultural, and 
socioeconomic factors.
    The current protracted political standoff is having an adverse 
impact on the security situation in Yemen. AQAP has taken advantage of 
ongoing political unrest to expand its operational territory, 
especially in the south. The Government of Yemen's efforts against 
terrorist elements have suffered a setback due to the last several 
months of political unrest. The government called back most of its 
security forces, including its counterterrorism units, to Sanaa where 
most of them remain. As a result, AQAP has made territorial gains in 
Abyan governorate, specifically attacking and remaining in the capital 
city of Zinjibar. This is of great concern to us and the Yemeni 
Government.
    Despite the challenge posed by the political situation, our 
counterterrorism cooperation continues as we share a common interest 
with the Yemeni Government in fighting terrorism and defeating AQAP. It 
is important to underscore: Our counterterrorism partnership goes 
beyond one individual, and based on our conversations with a broad 
cross-section of Yemenis, we are confident that it will continue once a 
political resolution is reached.
    To help meet our security interests, in 2010, the United States 
provided an estimated $172 million in training and assistance to 
Yemen's key counterterrorism and related law enforcement units:

          Through 1206 section funding, DOD has helped build the 
        capacity of Yemen's military forces to conduct counterterrorism 
        operations. Section 1206 programs provide training and 
        equipment to Yemen Special Operations Forces (YSOF), Yemen 
        Coast Guard (YCG), Border Security Forces, and the Yemen Air 
        Force (YAF). However, no FY 2011 1206 funding has been 
        programmed for Yemen because of the security situation and 
        political unrest.
          The Office of Antiterrorism Assistance (DS/T/ATA) has 
        provided Antiterrorism Assistance (ATA) to the Yemen Government 
        on an intermittent basis since 1987. ATA training is provided 
        to the Ministry of Interior's (MOI) Criminal Investigative 
        Division (CID) and Central Security Organization (CSO) and 
        focuses on building investigative capabilities of the police 
        and security forces to detect, disrupt, and respond to 
        terrorist threats. ATA program objectives include building 
        investigative capabilities, improving cross-ministerial 
        coordination, strengthening crisis response and developing the 
        ability to detect dangerous devices upon entry at land, air, 
        and maritime borders. However, due to the security situation, 
        ATA training was suspended in February. We plan to recommence 
        our assistance when the situation improves.
          In addition, we have also provided other assistance, 
        including training and equipment for improving biometric 
        databases and aviation security, and assistance to build the 
        capacity of the criminal justice sector.

    In addition to security assistance, we have begun an effort to 
develop a better understanding of AQAP messaging and audiences, so we 
can effectively counter its narrative and reduce its recruiting. The 
State Department's Counterterrorism Strategic Communication Center 
(CSCC) is commissioning a research and analysis project that outlines 
AQAP narratives, including how these narratives align with or conflict 
with specific audiences, as al-Qaeda communicators routinely tailor 
their messaging to local contexts. In addition, we are working with DOD 
to assess radicalization at the provincial level in Yemen, so that we 
can develop tailored approaches to counter terrorism, including viable 
alternatives for at-risk youth and encourage locally credible voices to 
challenge the AQAP message.
                  humanitarian and development efforts
    To advance our strategy, we've engaged consistently and intensively 
with our Yemeni counterparts--from the highest levels of the Yemeni 
Government to interlocutors from civil society and the private sector. 
Senior administration civilian and military officials--including 
Secretary of State, Hillary Rodham Clinton--have visited Yemen this 
year.
    In FY 2010, we significantly increased our humanitarian and 
development assistance to Yemen--providing over $100 million. These 
funds go toward efforts to strengthen civil society, support community-
level development, and improve livelihoods to address the long-term 
drivers of instability. The portfolio utilizes small scale, community-
based projects and possesses sufficient flexibility to respond to 
rapidly changing economic and political conditions. Following months of 
unrest in Yemen, USAID focused its programming on the immediate needs 
of affected communities. Yemen's unrest has paralyzed economic and 
social development. The impact of this unrest on the daily lives of 
Yemenis, particularly the most vulnerable, has been devastating. As my 
colleague from USAID will discuss in more detail, USAID has expanded 
humanitarian assistance to help those displaced by violence in the 
south of Yemen and also continued to support vulnerable families 
displaced by earlier conflict in northern Yemen. Quick impact 
activities, designed to provide cash for work opportunities or assist 
with immediate needs such as water access, are also underway.
    Separately, the Middle East Partnership Initiative (MEPI) is 
working with Yemeni civil society to empower Yemenis to shape their own 
future. MEPI supports elements essential to an inclusive society, such 
as responsible and representative political parties, effective and 
robust nongovernmental organizations, independent media, full civic 
participation by women, and a responsive educational system and private 
sector. We are committed to working with the Yemeni people and 
coordinating with our international partners as we work together on the 
full scope of issues.
    We welcome the involvement of the international financial 
institutions and multilateral development banks, notably the World Bank 
and International Monetary Fund (IMF) along with key donor countries in 
addressing Yemen's economic and development challenges. As part of a 
broad global partnership, the United States and other partners have 
actively sought to help Yemen address the challenges that it faces, 
enhancing Yemen's security and improving its governance. The Friends of 
Yemen process provides a forum for the United States to engage 
international partners, including regional states, as we collectively 
work with the Government of Yemen to help address its challenges. Most 
World Bank and IMF work is on hold given the current situation, but we 
are committed to supporting international organizations as best we can 
in the immediate environment and are prepared to move forward to do 
more as soon as the conditions permit. If and when Yemen's political 
transition occurs, we will focus on helping Yemen secure financial 
assistance to stabilize its economy in the near term, while 
concurrently working with the international donor community to support 
Yemen in initiating a series of reforms that would lay the ground work 
for sustainable growth.
    We also believe there will be an opportunity to continue important 
international engagement to assist the Government of Yemen in growing 
more transparent and responsive to the requirements of its citizens 
through the Friends of Yemen process once the Yemeni Government 
initiates political transition. A Friends of Yemen meeting scheduled 
for March 22 was postponed indefinitely by the Yemeni Government due to 
the political crisis and it is unlikely that we will be able to have a 
meeting before political transition takes place.
                               conclusion
    Ultimately, the goal of U.S. and international efforts is a stable, 
secure, prosperous, and effectively governed Yemen. This is an 
ambitious long-term goal that demands deep and ongoing coordination 
with the Yemeni Government, Yemeni civil society, and international 
partners. The United States and the international community will be 
able to more effectively engage in Yemen across a spectrum of issues 
including political, security, economic, social, and governance reform, 
once the Yemeni Government initiates political transition and 
identifies its way forward.
    Thank you for inviting us to testify before your committee today. 
We'd be happy to take any questions that you might have.

    Senator Casey. Thank you very much.
    Ms. Capozzola.

STATEMENT OF CHRISTA CAPOZZOLA, DEPUTY ASSISTANT ADMINISTRATOR, 
 BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, 
   U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Ms. Capozzola. Mr. Chairman and Mr. Ranking Member, thank 
you for your invitation to testify before you today on Yemen.
    The challenges and constraints to security, stability, and 
economic development for the Yemeni people are growing. The 
current political crisis and related economic impacts on 
foreign exchange, on imports, and on food and fuel access are 
increasing the number of vulnerable people countrywide.
    At the same time, the increasing political violence has 
displaced an additional 70,000 or so people from their homes 
since February, adding to the already large humanitarian 
situation in the country.
    USAID's programs and partners are responding to these fluid 
conditions under difficult circumstance. The strategy and 
portfolio were designed with sufficient flexibility to deal 
with evolving conditions, but the overarching goal of the 
strategy remains: to help build a solid foundation and the 
overall resilience and stability to enable Yemen to meet its 
development challenges longer term and mitigate the drivers of 
extremism.
    The agency is doing this by focusing on two priorities: 
First, community-led activities to improve livelihoods for 
vulnerable population, and especially youth. These activities 
include cash for work, typically for community infrastructure 
improvements, like health services and safe drinking water 
access, also includes support for small farmers, access to 
improved inputs and irrigation.
    Linked to this community-based effort is, of course, also 
USAID's maternal and child health program, including, for 
example, the 1,500 midwives we've trained just in the past year 
to improve women's access to health services around the 
country, plus also, of course, the range of community-based 
youth engagement and vocational training activities that we're 
supporting around the country.
    The second area of emphasis is broadly the democracy and 
governance area, helping to improve governance capacity and 
strengthening the role of civil society in Yemen, so ultimately 
Yemen can achieve more inclusive and effective institutions 
that are able to respond to Yemen's citizens and mitigate 
conflict.
    So how are we pivoting to meet these new challenges? First, 
let me say that although the U.S. mission is under order of 
departure, the USAID mission is still staffed at three, down 
from five. USAID's implementing partners are facing increased 
security constraints, and the pace of implementation in certain 
programs has slowed. But we continue to operate throughout the 
country.
    Where we face new and acute security challenges plus 
humanitarian requirements, such as in the south in and around 
Zinjibar, access is a constraint to monitoring conditions and 
responding to needs, but some key partners are operational and 
delivering humanitarian aid to those in need.
    Further, USAID is closely coordinating with international 
organization partners and other bilateral donors to prepare for 
worsening food and humanitarian conditions by identifying needs 
and prepositioning relief in the areas of greatest concern.
    We're also coordinating with our international partners to 
prepare for a potential transition. USAID coled a recent 
assessment of expected electoral process needs in the near 
future.
    In addition to contingency planning, we are taking action 
under these rapidly evolving conditions. USAID is expanding its 
geographic scope to include urban areas where recent unrest has 
paralyzed more basic services and increased the number of 
vulnerable people. We are continuing summer programs for over 
14,000 youths in five governorates, based on a successful pilot 
of youth engagement that was done last year.
    The agency is providing, for example, medical supplies and 
pharmaceuticals to health facilities that are treating the 
wounded in cities that are facing extended violent protests.
    Yemen is facing immense challenges at the same time local 
and global in nature, and it is in support of vital U.S. 
national interests to continue to provide development 
assistance to Yemen.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Capozzola follows:]

                Prepared Statement of Christa Capozzola

    Chairman Casey, Ranking Member Risch, distinguished members of the 
committee, thank you for inviting me to testify today on the United 
States development priorities in Yemen. In my testimony today, I will 
describe how USAID is helping the people of Yemen cope with the impact 
of the current political and economic crisis, and identify and mitigate 
the long-term drivers of extremism and instability.
                               challenges
    Long-term underdevelopment throughout Yemen has resulted in chronic 
poverty, poor nutrition, and substandard living conditions, 
particularly related to food insecurity and limited water supplies. The 
recent political upheaval has resulted in a dire economic situation and 
increased humanitarian needs. Access to water is another key challenge, 
and fuel shortages have worsened the situation because it renders many 
wells inoperable. The political situation has exacerbated these 
underlying challenges. The near total breakdown of government services 
outside Sanaa has likewise heightened security and access problems for 
both the U.S. Government and our international partners in the most 
affected areas. Political violence has displaced 60,000-70,000 Yemenis 
from their homes since February, primarily in the south. This is in 
addition to the internally displaced people (IDPs) and conflict-
affected Yeminis connected to the ongoing conflict in the north.
                             usaid strategy
    Despite security challenges and political turmoil, the U.S. Agency 
for International Development's (USAID) programs continue to operate 
throughout the country. Most local field offices and teams are able to 
operate, managing and monitoring programs in some of the most volatile 
areas of the country. Project implementation has slowed due to security 
challenges and fuel shortages. Access in some area, particularly 
southern Yemen, remains a persistent constraint to monitoring 
conditions and responding to emerging needs.
    USAID's portfolio is designed with sufficient flexibility to 
respond to rapidly changing economic and political conditions. The 
program supports small-scale community-led projects to improve the 
livelihoods for vulnerable population. These include cash for work--
particularly focused on Yemeni youth--for infrastructure improvements; 
health services and safe drinking water; provision of agricultural 
inputs like seed and fertilizer; veterinary services and training; and 
microfinance and small enterprise support.
    Longer term development objectives are focused on building 
governance capacity at the local level, particularly for service-
oriented ministries such as health and education and strengthening 
civil society organizations to mitigate conflict and strengthen avenues 
for civic participation and more inclusive governance.
               current situation and programmatic shifts
    In the wake of recent protests, political violence, and the 
economic downturn, USAID is expanding its geographic scope to include 
populations in urban areas where recent unrest has paralyzed the 
provision of basic services. A USAID assessment team is on the ground 
this week to evaluate the situation, and recommend appropriate 
additional interventions.
    Expanding political violence in and around the Abyan governorate 
has resulted in over 50,000-60,000 IDPs, primarily in Aden, Lahj, and 
Abyan governorates. In response, USAID is providing clean water and 
emergency relief commodities. In recent weeks, USAID has provided more 
than $4.8 million in additional humanitarian assistance to Yemen, 
including $3.6 million to respond to the increasing needs of internally 
displaced persons in Aden and Lahj governorates in southern Yemen. It 
is important to note that USAID continues to support a robust 
humanitarian program in the north to assist 400,000 IDPs and conflict-
affected Yemenis. This multisector humanitarian response is 
concentrating on water and sanitation programs, including 
rehabilitating water points and addressing high salinity levels of 
household water.
    Throughout the entire country in FY 2011 to date, the U.S. 
Government's humanitarian efforts total nearly $48 million, including 
almost $12 million from the International Disaster Assistance account, 
$20.2 million from Food for Peace Title II food aid, and $15.3 million 
for Yemeni IDPs and refugees from the Horn of Africa from the State 
Department's Bureau for Population, Refugees and Migration (PRM). Over 
$35 million of the humanitarian assistance we provided is funding the 
current United Nations consolidated appeal for Yemen, for which the 
U.S. Government is the No. 1 donor worldwide. In FY 2010, the U.S. 
Government provided $45 million in humanitarian assistance for Yemen.
    Recognizing that deteriorating economic conditions could trigger 
severe food insecurity and other humanitarian consequences, USAID and 
the State Department are coordinating closely with its partners and 
other international donors to identify needs and preposition emergency 
relief supplies in the areas of greatest concern.
    Additionally, since public utilities, schools, hospitals, clinics, 
and other service providers are finding themselves short on government 
capacity, supplies, fuel and staff, USAID is providing assistance to 
help maintain much-needed social services in some of the highest 
priority, least accessible areas around the country. USAID has also 
been responding to acute emergency requirements at the sites of large-
scale protests in four cities by providing medical equipment and 
commodities to health facilities that are servicing those wounded in 
the protest violence.
    U.S. Government programming is able to respond to the evolving 
needs of the Yemeni people and mitigate the effect of the worsening 
political and economic crisis. The agency is implementing seven water 
projects to expand networks to reach more households and markets and 
rehabilitate wells and public water storage tanks. These projects 
improve access to water and sanitation for 15,900 beneficiaries in five 
northern districts, where 2 months of clashes between Houthi militants 
and tribesmen have displaced hundreds of families. USAID partners are 
also rehabilitating roads in underserved areas. The roads improve 
access to services and markets for 39,000 residents of 80 villages 
while preventing isolated safe havens that can be exploited by 
militants.
    Additionally, USAID is equipping and supporting the operations of 
mobile medical teams that visit underserved communities, treating 
approximately 3,000 cases per month, and working with clinics to ensure 
that they are able to operate cold storage units for medications. The 
1,500 midwives we have trained in the past year are continuing to 
provide maternal and child health care to their communities.
    Almost a quarter of our assistance supports democratic reform by 
encouraging citizen participation in the political process and 
strengthening government institutions to deliver public services. USAID 
will build on existing investments to respond to a possible political 
transition scenario. For example, USAID provided support to Yemen in 
the last Presidential and parliamentary elections and we are prepared 
to assist with future political processes and elections.
    Total funding implemented by USAID (other than humanitarian 
assistance) grew to $77.6 million in FY 2010, including crisis-response 
contingency allocations from Department of Defense section 1207 
resources ($10 million) and USAID's Complex Crises Fund ($12.8 
million). These resources have been critical for USAID's capacity to 
operate flexibly and effectively throughout the country. The total 
amount of funding for FY 2011 from all accounts for Yemen is still 
under consideration.
                               conclusion
    USAID is meeting increasing challenges in Yemen and will continue 
to exercise rapid and flexible assistance response to evolving 
conditions related to a possible political transition, economic crisis, 
and humanitarian needs. I appreciate the opportunity to share what we 
are doing to support the needs and aspirations of the Yemeni people for 
a more stable, unified, and prosperous nation.
    I look forward to your questions.

    Senator Casey. Thanks very much.
    Ambassador Sanderson.

 STATEMENT OF HON. JANET SANDERSON, DEPUTY ASSISTANT SECRETARY 
 OF STATE FOR NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Sanderson. Thank you, Mr. Chairman.
    Chairman Casey, Ranking Member Risch, distinguished members 
of the committee, let me first join with my colleagues to thank 
you for inviting us to appear before you today. We appreciate 
the committee's abiding interest in and attention to our 
Nation's priorities and goals in the region. We are pleased to 
present the committee with an overview of the administration's 
policy and our relationship with Yemen.
    As you rightly note, Mr. Chairman, civil unrest in the 
Middle East and North Africa in the past 6 months has focused 
attention on governance across the region.
    Yemen is, indeed, confronting myriad political, economic, 
social, security, and governance challenges, and the current 
political crisis has exacerbated systemic issues such as 
unemployment, a rapidly growing population, weak state 
institutions, declining government revenues, growing natural 
resource scarcity, and, of course, violent extremism.
    Consistent with U.S. national interests, we have adopted a 
two-pronged strategy for Yemen, helping the government confront 
the immediate security threat represented by al-Qaeda, and 
mitigating serious political, economic, and governance issues 
that the country faces over the long term, the drivers of 
instability.
    The United States continues its regular engagement with the 
government, including with President Ali Abdullah Saleh, who's 
currently, as you know, recovering in Saudi Arabia from his 
injuries following a June 3 attack on his compound; the acting 
President, Vice President Abdu Rabu Mansour al-Hadi; the 
opposition; civil society activists; and others interested in 
Yemen's future.
    We strongly support the Gulf Cooperation Council's 
initiative, which we believe would lead to a peaceful and 
orderly political transition, the GCC initiative signed by both 
the ruling General People's Congress Party and the opposition 
coalition Joint Meeting Parties.
    Only President Saleh is blocking the agreement moving 
forward, and we continue to call on him to sign the initiative.
    The situation on the ground remains extremely fluid, but 
the solution will come and must come from the Yemeni people, 
with the assistance and support of their international 
partners, namely the GCC and Saudi Arabia. Conditions in Yemen 
continue to deteriorate under the pressure of growing protests 
and increasing divisions throughout the country.
    Widespread inflation, including rising commodity prices, 
decreasing liquidity, and the threat of a food shortage this 
summer foreshadow an economic crisis in the coming months.
    While most protests in Yemen have been peaceful over the 
last couple of months, there have been violent clashes between 
pro- and anti-government demonstrators, and between protesters 
and government security forces and irregular elements using 
force to break up demonstrations. The United States has 
strongly urged the Yemeni Government to investigate and 
prosecute all acts of violence against protesters.
    Ultimately, Mr. Chairman, the goal of the United States and 
international efforts is a stable, secure, prosperous, and 
effectively governed Yemen. This is an ambitious, long-term 
goal that demands the deep and ongoing coordination with the 
Yemeni Government and the international partners. We will be 
able to more effectively engage in Yemen once the Yemeni 
Government initiates the political transition and identifies 
its way forward.
    Thank you, Mr. Chairman, for inviting us to testify before 
your committee today, and thank you so much on behalf of 
Ambassador Feierstein and his colleagues at Embassy Sanaa for 
your very kind words. They certainly deserve it. My colleagues 
and I are very happy now to take your questions.
    Thank you.

    [Editor's note.--See page 5 for the prepared joint 
statement of Ambassador Sanderson and Ambassador Benjamin.]

    Senator Casey. Thank you very much. And to each of you, 
thank you for staying with your time limits even without being 
warned about time. We're grateful.
    Let me just provide kind of a setting for my questions, and 
then I'll start with Ambassador Sanderson.
    When you go through the list of challenges that we face, 
and of course the people of Yemen face directly, whether it's 
the basic security challenge because of the threat posed by al-
Qaeda, not to mention other security issues, the poverty issue, 
health care--you go down the list. I'm not sure there's a place 
in the world that has more.
    And then when you juxtapose that with the unusual 
circumstances as compared to even other countries in the 
region, and a lot of other places, where there was fervor for 
change, you had some kind of transition process, or at least 
the elements of a transition. There was a leader of one kind or 
another or a group of leaders where you could have a 
transition. Here, we have very little of that.
    And of course, we've got a President who's not physically 
there, but also has kind of given, in my judgment, a lot of 
mixed signals to us and to the world. So there's a lot of--to 
say there's volatility and uncertainty is an understatement.
    In the context of all that, all of those challenges, plus 
the unusual dynamic, which I just outlined and probably haven't 
done justice to, we get the news that there's a 17-member 
council, which some have described as kind of a shadow 
government of technocrats, that will ultimately select 501 
members of a national assembly. And yet according to one 
published report, I guess it was the New York Times, that says 
that many of the members of the council weren't informed that 
they were named to the council.
    So you have yet even more uncertainty and a lot of 
questions about whether or not just day-to-day governance can 
take place, which of course exacerbates the security and other 
problems.
    Can you tell us anything about that in terms of any current 
information about this recent news about the council? And 
anything you can tell us that's an update on the President, 
what his intentions are, what we believe his intentions are?
    Just the kind of basic day-to-day who's in charge and kind 
of fundamental governance questions.
    Ambassador Sanderson. Well, thank you, Mr. Chairman. Let me 
try, if I can.
    You've covered a wide, wide group of topics, and I think 
they do point to the enormous challenges that the Yemenis face 
not only today, but also in the longer term.
    With regard to the President, as I stated in my testimony, 
he is indeed still in Saudi Arabia recovering. We have seen 
reports from people close to him that he's interested in 
returning to Sanaa. We're obviously not able to confirm that 
one way or another.
    But obviously, whatever he does looms large in the 
political calculations of everyone on the ground in Yemen right 
now.
    We strongly believe that a transition is necessary, that an 
orderly, peaceful transition is the only way to begin to lead 
Yemen out of the crisis that it has been in for the last few 
months.
    We are strongly supportive, as I said, of the GCC 
initiative. We believe that this is one way within the 
framework of the existing Yemeni Constitution that not only 
leads to elections, but also allows the opposition, the public, 
the protesters, all to have a voice in Yemen's future. So we 
continue to strongly urge President Saleh to sign and implement 
the agreement.
    In terms of the day-to-day governance of Yemen, the Acting 
President under the terms of the constitution, is Vice 
President
al-Hadi. He is a southerner who has been rather retiring in the 
past. He appears to be willing to sort of step up to the plate 
and begin to make the hard decisions that a President, even an 
interim or Acting President of Yemen, must do. He has been 
meeting with the opposition; he has been meeting with members 
of his own party; he has been meeting with protesters; and he 
has been meeting with the military to try and come to some type 
of agreement to continue and indeed enhance the political 
dialogue that's going to be so important for Yemen.
    And obviously, what the endgame looks like in terms of who 
will lead Yemen into the future, that's still very much up in 
the air. We do hope, at the end of these consultations, we hope 
that the President will sign the GCC agreement. We hope that, 
therefore, that would allow a national unity government to come 
forward and, again, move toward elections, as I said, within a 
period of 60 days.
    We've seen these reports that say that some of the 
protesters have established a national council. Frankly, we 
don't have a lot of information about it yet. There's no 
provision for such a council within the terms of the 
constitution.
    Our understanding from Ambassador Feierstein and others is 
there were people who were named to the council who were caught 
unawares and did not expect to be so named. It seems to us that 
at this point this council does not have a lot of traction, but 
the political environment in Sanaa remains quite fluid. So I 
think we'll have to see how it plays out.
    I get back to my original point. We believe that political 
dialogue is essential to unravel this set of knots that the 
Yemeni political process finds itself in. We believe that 
Saleh's role in that is going to be critical, but we also think 
that an open political dialogue between the parties, the 
opposition, the protesters, the youth, and certainly civil 
society, is going to be very important for the future.
    Senator Casey. I wanted to ask you before I turn to Senator 
Risch, as you could note from my opening, I believe we should 
be sending a very clear message to the people of Yemen that 
we're focused on their concerns as well.
    And sometimes, as it happens, sometimes just by implication 
or maybe by emphasis, we focus appropriately on 
counterterrorism, but sometimes that can, in some ways, 
downgrade or deemphasize our focus on the people.
    I guess I'd ask, on behalf of the administration, what 
would you say, if you had a room full of citizens of Yemen 
here, what would you say to them in terms of our focus and our 
message to them, beyond the common focus that we have on al-
Qaeda and other extremists?
    Ambassador Sanderson. Well, I think, sir, that's an 
excellent question. And I do want to stress the fact that we 
see our partnership with Yemen far beyond the prism of 
counterterrorism cooperation. Obviously, that's important. But 
we have broad relations in terms of our assistance 
relationship, our public diplomacy outreach, and our support 
for civil society.
    We are working very closely with the Yemeni people on 
priorities that are important to them. They face, as you noted, 
enormous economic challenges that frankly are driving the 
country, I'm afraid, into immediate crisis. But we understand 
that our relationship is simply not a security or a military 
relationship, that it has to be broader, fuller, and it must 
bring to bear all the resources of the U.S. Government, so we 
can support Yemen as they go through what is going to be an 
extraordinarily difficult transition for them.
    Senator Casey. And I'll turn to Senator Risch. I might ask 
you a little bit later about the kind of results that our 
taxpayers can see, and by way of measuring.
    Senator Risch.
    Senator Risch. Well, can you describe for us the situation 
down in the southwest, where the militants seem to be in 
charge, and
al-Qaeda's influence in that regard?
    Ambassador Sanderson. Senator, what we have seen as a 
result of this focus by the government on the security 
situation, the political unrest in the large cities, is a 
growing space in which extremists have been able to operate.
    There are reports that Islamic militants, among them 
included some members of al-Qaeda, have gone in and taken 
control of the city of Zinjibar. There are reports that a 
couple smaller cities in that area have also been taken over by 
militants. We do know that the 25th Mechanized Division in the 
Zinjibar garrison is under siege and has not been relieved, 
although the government is trying to find a way to do that in 
the very near future.
    It speaks to our concern about control of the central 
authority over various parts of the country. Even the Vice 
President himself has admitted that the government does not 
have control in 5 of the 21 governorates.
    What we are concerned about, obviously, is with this focus 
on the political malaise, with this focus on the political 
unrest, that the very real threat to Yemen, to us, to the 
people of the region, from al-Qaeda and from extremists, is 
going unaddressed. It's one of the reasons why we continue to 
urge President Saleh and the various players to come to some 
type of agreement to get the political dialogue started and get 
a solution under way.
    But, yes, we are quite concerned about the situation in the 
southwest.
    Senator Risch. Ambassador Benjamin, do you have anything to 
add to that?
    Ambassador Benjamin. Senator, it is of course a matter of 
great concern that al-Qaeda in the Arabian Peninsula sees this 
opportunity to establish a territorial hold on this area in 
Zinjibar and Jaar. It is something that we are watching with 
great concern.
    We are worried, obviously, when they have a safer haven in 
which to operate. We are worried that they threaten the city of 
Aden to some extent, and that, of course, if they are able to 
get access to the sea, that presents other concerns.
    And, really, I just want to echo what Ambassador Sanderson 
said. It is vitally important that the transition take place 
and that the security forces in Yemen get back to business, 
that we be able to resume the full range of training activities 
that we have with them so that they can deal with this issue.
    And undergoverned spaces are not new to Yemen. This has 
been a problem for not just years but decades.
    But the situation is quite worrisome. And that is really 
why it's so important that the political stalemate be broken.
    Senator Risch. One of the reasons I ask this is you 
mentioned the money that the United States was spending in 
arming and training the security forces. And we have learned 
the hard way that sometimes the people that we are arming and 
training become our adversaries in the future. I don't need to 
go into specific examples of that. We all know.
    Is that a concern here?
    Ambassador Benjamin. I don't think it's really a paramount 
concern right now. The militants who are active in the south 
are not people that we have armed or trained before in any way. 
And we don't expect that there would be many individuals who 
would defect from the armed forces and join with this group of 
militants.
    What we are occasionally concerned about is that the 
weaponry and the training that we give particular forces are 
used for the reason that they were given. And we maintain a 
very scrupulous end-use monitoring. Obviously, our monitoring 
is somewhat affected by the fact that the situation, the 
security situation, is not what we would like, and, therefore, 
our ability to investigate is limited.
    But I don't think that we have to worry right now about 
Yemen tilting the other way.
    And I would just want to underscore another part of my 
statement, which is that we do believe that there is a strong 
desire on the part of Yemenis across most of the political 
spectrum to cooperate with us and deal with the terrorist 
threat within Yemen's borders. And the soundings that the 
Embassy has taken in the opposition, for example, have been 
quite clear about that.
    And our counterterrorism cooperation really is not just 
about one person, one particular leadership group. It is very 
much about helping the people of Yemen deal with this 
pernicious presence within the Yemeni state.
    Senator Risch. Well, I appreciate that. And that was the 
reason I asked the question, is, if you look at that, it 
certainly seems to me, at least, that there is some risk that 
this blossoms out and envelopes the whole country, where 
they're as weak as they are, where the government is as weak as 
it is, and the people really ineffective in being able to 
govern themselves. And your words
are comforting. I hope that's the situation and continues to be 
the situation.
    Thank you.
    Senator Casey. Thank you, Senator Risch.
    Senator Coons.
    Senator Coons. I want to thank Senator Casey for holding 
this critically important hearing on United States policy in 
Yemen.
    And I am deeply concerned, as are other members of the 
committee, about Yemen, given the presence of al-Qaeda in the 
Arabian Peninsula and recent political upheaval and other 
sources of instability the panel has ably described.
    In our recent hearings as a full committee on Afghanistan, 
I made the case that, in my view, the United States has to 
maintain the resources and flexibility needed to respond to 
other emerging security threats such as those in Iran and 
Somalia and specifically Yemen. And I'm increasingly concerned 
that our commitment in Afghanistan has limited the resources 
available for addressing such threats.
    And I wanted to start by asking Ambassador Sanderson, do 
you believe the United States has dedicated the resources 
really necessary for addressing emerging security threats and 
the other development-related sources of instability in Yemen?
    And I'd be interested in an overview from all three of the 
panel members about whether you think we're providing the 
needed both capital and political and developmental resources 
to deal with the challenges in Yemen.
    Ambassador Sanderson. Well, thank you, Senator.
    I have to say that there's been a significant increase, as 
you are aware, in our assistance both from the civilian and the 
military side, since 2009, to Yemen. We have, I think, a 
holistic approach to our policy toward Yemen, that, on one 
hand, we are working hard to try and address the issue of 
terrorism, to address the issue of extremism, to provide the 
training and equipment to the Yemenis so they can deal with 
this very important issue.
    On the other hand, we understand that we have to focus on 
development, governance, social issues, the types of things 
that do create the conditions in which extremism can flourish.
    So I have to say that, from our perspective in the State 
Department, we have the tools we need, at least at this point, 
to do the necessary in Yemen.
    To be honest, in Yemen we are somewhat hamstrung by the 
absorptive capacity of the Yemenis themselves. There is not a 
large capacity to take on either large amounts of development 
assistance.
    On the military side, we very much focused on the C.T. 
elements that are going to be partners with us in the effort 
against violent extremism.
    But we have been, I'd like to say, very creative in the 
tools that we're bringing to bear on the myriad problems that 
Yemen faces, whether it's through the typical traditional aid 
programs that Christa can talk about or the Middle East 
Partnership Initiative, where we have a very robust program in 
Yemen that addresses things like political party development 
and civic education, as well as things like child brides.
    I think that we have the tools we need to address issues on 
the ground. I have to, however, flag the fact that when there 
is this transition, this political transition, the needs of the 
Yemeni people, I think, are going to become much greater. And 
the international community, of which the United States is, 
obviously, a leading player, is going to have to step up and 
help the Yemenis in this new political environment move 
forward.
    Senator Coons. Thank you, Ambassador.
    Ms. Capozzola. Thank you.
    To reiterate what my colleague has said, our resources were 
stepped up last year, in fiscal year 2010, quite significantly. 
In terms of development and humanitarian assistance, they more 
than doubled compared to fiscal year 2009.
    So we're really stepping up our game and using, as was 
said, a variety of creative mechanisms to extend our reach 
throughout the country, get into more communities in more 
areas, do more community-level investments, the kinds of things 
we can do in this environment, where we may not have the type 
of partnership we need at the central level to tackle some of 
the fundamental development challenges, for example, water. So 
we're doing a lot of local-level water with these increased 
resources and, I think, sending a very strong message to the 
Yemeni people about United States support for their situation.
    On the other hand, we can't address the longer term water 
challenges that Yemen faces right now until attention can be 
turned to that in the center on key policies and engagement 
with the broader international community to bring the kind of 
investment together that will tackle those sorts of challenges.
    Senator Coons. Thank you.
    And, Ambassador Benjamin, if I might add to the question of 
whether we've got sufficient resources to deal with security 
issues, we've partnered with the Saudis to some extent. We've 
diverged with them, to some extent, in terms of our policy and 
our approach.
    I'd be interested in hearing your comment on both.
    Ambassador Benjamin. First, on the resources, let me just 
elaborate on what's been said before and say that the primary 
constraint on making progress in Yemen right now is not the 
numbers. It's the political situation that inhibits our ability 
to spend effectively.
    And just to give you one indicative set of numbers, our 
1206 funding went from $4.3 million in 2006 to $153 million in 
2010. That's an extraordinary leap. Yet we are unable to spend 
1206 money this year because of the political insecurity.
    So I think we have the right mix of resources, and I should 
also add that from a counterterrorism perspective, I'm 
particularly pleased at the strong commitment that the 
administration has to invest on the development side and 
governance side, because that's vitally important for dealing 
with the fundamental underlying causes that drive extremism.
    The real issue will be when we can get back to work there.
    You asked about the relationship with Saudi Arabia. We 
consult with the Saudis every step of the way. They, obviously, 
are the most influential power in the region and Yemen's 
neighbor to the north. I think that we have, actually, a very 
clear understanding of the requirements there. They share our 
desire to see resolution of the political situation and to get 
on with helping Yemenis solve their security problem and deal 
with the very, very formidable long-term economic development 
and governance problems that they face.
    Senator Coons. Thank you, Ambassador.
    Thank you, Senator.
    Senator Casey. Thanks, Senator Coons.
    I wanted to start this round with Ms. Capozzola with regard 
to not just the dollar amounts and what it's being spent for, 
but what results you're seeing. And I can't even begin to 
describe, maybe you could, if you had a lot of time, the 
challenges you face. And USAID is always facing difficult 
environments, but this has to be one of the most difficult, 
where you have not just a tremendous need, but with the rise in 
violence and other complicating factors, it's harder to deliver 
on what we propose or promise or fund.
    But I was just going through your testimony and just kind 
of highlighting some of the things you've mentioned as 
progress, either progress or just initiatives. I'm looking at 
page 2 of your testimony, where you describe some of the 
challenges in the number of internally displaced persons, 
50,000 to 60,000, and the help you're providing there--clean 
water, emergency relief, humanitarian programs. You highlight 
health care services, agricultural inputs.
    And then on page 3 you actually list, in a more specific 
way, some of the work that's being done--seven water projects, 
water and sanitation for 15,900 beneficiaries in five northern 
districts, rehabilitation of roads, mobile medical teams, 1,500 
midwives, you go down the list.
    I'm going to ask you two questions. What's the best way to 
articulate results from all of that effort, say, over the last 
year or two? No. 1, what's the best way to articulate the 
results?
    And then No. 2, can you provide us with any vignettes or 
examples or testimony that would make the linkage between 
poverty and economic devastation or desperation, maybe, that 
you're seeing leading directly to extremism or terrorist 
activity, or at least the inspiration for that? Because we say 
that in a way where we, I guess, believe it's self-evident, 
that if someone is poor and desperate and hungry, they may turn 
to extremism. But I wanted to ask you, because you may be 
seeing things on the ground that are more evident or are more 
powerful of an example of how those conditions lead to 
extremism.
    But, first, the question on kind of results for our dollars 
and our taxpayers.
    Ms. Capozzola. Thank you for the excellent question, 
Senator.
    I think that really is a key question. We talk about our 
objectives in terms of mitigating the causes of instability. We 
have a very broad portfolio with a lot of activities around the 
country. And what is it all adding up to in terms of impact? 
This is the key question.
    At the first level, I think USAID's activities are fully 
engaging with Yemeni people. And to your earlier question about 
the message that we're sending, I think that it's on the first 
level very important to look at the outputs and the engagement 
of our work in terms of the number of youths that we reach and 
provide training services and development activities to, the 
number of women who get improved access to health care.
    But those are outputs and, to be honest, in my view, the 
ultimate outcome, which is laying a more solid foundation for 
Yemen's development, we aren't there yet to be able to really 
evaluate in this current environment what that impact is.
    But that really is the ultimate indicator. Will we be in a 
position in the near future for the Yemeni people to move 
forward on some of the fundamental development challenges: 
jobs, water, services and, you know, constructive engagement 
between government and citizenry that will move the country 
forward and beyond the cycle of conflict and instability?
    We have a lot of anecdotal examples of the way projects at 
the community level mitigate conflict. So, for example, in a 
few different areas in the north, there's a lot of conflict 
between tribes that is created by access to water for farming. 
And programs that have been just doing simple repairs to 
irrigation canals that have been neglected for many years are 
having a documented impact on these communities and how they 
are able to prevent and work out conflicts over water access.
    So we see a lot of examples like that at the local level. 
And, again, our ultimate goal is to see that add up to a bigger 
impact for the country as a whole.
    Senator Casey. We can get to the second question in a 
moment. But I want to press you a little bit on the first part, 
or the first question.
    We're living in an environment here, fiscally and in terms 
of our budget, where I think taxpayers need to see results. 
Especially they don't expect results in 2 months, but I think 
over a year, and in some cases 2 years, when you can make that 
comparison to say--I mean, some of what you have here are 
results.
    When you say there are 1,500 midwives who were trained, 
that's a result. We know you can extrapolate from that the 
number of pregnant women that will be helped, or at least get a 
good estimate.
    When you say improved access to water and sanitation for 
15,900 beneficiaries, that's a result you can measure.
    But I think in order for this to work, in order for us to 
sustain support for strategies that are going to have these 
kinds of positive outcomes, we've got to be able to list, 
itemize, measure. And I know that's difficult, but I'd urge you 
to try to continue to provide those kinds of lists.
    I know I'm almost out of time for this section. Let me just 
add a little more time to my question period.
    This linkage or the perceived linkage between poverty and 
desperation and extremism, can you give us any insight into 
that or any evidence?
    Ms. Capozzola. Well, I think it's been documented in a 
number of analyses that there's a very strong link between 
economic opportunity and attraction to extremism in a number of 
different settings. I don't have an assessment at this time of 
our Yemen youth activities to be able to say, ``Here, look at 
the analysis.'' I will look into it and see if I can find a 
specific, project-level, community-level story for you, because 
I think it's a great question.
    And the work that we're doing with just this summer 
reaching over 14,000 youth around the country is extremely 
important. The work that we're doing in--there are at least 
four different new vocational training centers that are 
providing small business and entrepreneurial skills to youth.
    We are also in the civil society side of the portfolio 
engaging to support emerging youth leaders. And I think this is 
very important in working closely with the Embassy on those 
activities.
    As you said, there are a lot of outputs and interim results 
that we can point to about the types of good impacts we're 
having on people's lives. And we'll continue to make that 
presentation as strongly as we can.
    Senator Casey. I'll come back to Ambassador Benjamin in a 
moment.
    But, Senator Risch.
    Senator Risch. Briefly, as we do need to get to the next 
panel, but Ms. Capozzola, something that's of interest to me 
and I suspect of interest to a lot of other Senators up here 
is, can you give us your assessment of how Americans are held 
in regard in Yemen?
    And I ask that question because a lot of us are relatively 
concerned, and I guess offended to a degree, as to how poorly 
we're held in repute in Pakistan.
    You know, we went in there and spent hundreds of millions 
of dollars rebuilding their bridges after the floods in Swat 
Valley, and we put in billions of dollars there every year. And 
they have objective measurements that show that the 
favorability of America is in the single digits in Pakistan.
    And, frankly, that's pretty disgusting when you're spending 
that kind of money there, and you're trying to help people, and 
you get no appreciation for it. And I understand there's no 
objective standard in Yemen because it's more difficult--it 
would probably be impossible, really, to measure on an 
objective basis.
    But maybe from anecdotal testimony or from some subjective 
standpoint, can you give me your description of how we're held?
    Ms. Capozzola. Thank you, Senator, for that question.
    In general, USAID's experience is that the perception of 
Americans and our aid is positive. And I guess the way that I 
can help illustrate that most poignantly is that we brand our 
assistance in most cases throughout the country. So it's 
tagged. It's clear who it's coming from.
    So this is important in terms of the messaging, again, 
Senator Casey.
    But it also means that we are able to operate--our 
partners, many USAID partners, are able to operate openly as 
funded by the American people. And this is well-received and is 
done, you know, for the most part, safely throughout the 
country.
    Senator Risch. What would be just a gut feeling if they did 
some objective standard or did an objective survey? What 
percent of the people of the country do you think would respond 
that they were favorable or at least neutral as far as the 
United States is concerned?
    Ms. Capozzola. I really can't speculate. I may also turn to 
my colleague from State to see if there have been any surveys 
done.
    I am not familiar with data on perceptions. It may have 
been done.
    But is there a recent experience you can point to either?
    Ambassador Sanderson. Senator, I've seen some of the Pew 
reports and others that have done some surveys in the region, 
but I'm not aware that there's anything on Yemen specifically.
    I can only share, as does Christa, some anecdotal evidence 
in terms of our Embassy outreach.
    Until the most recent security problems, the Embassy was 
really moving outside of Sanaa to make sure that there was a 
sense among the Yemenis that it was more than just a focus on 
the capital, which is sometimes one of the things that we are 
accused of, no matter where we are.
    The reception that the Ambassador and Embassy colleagues 
have received throughout the country has been extremely good.
    In terms of specific information, we can look into that and 
see if there have been some more recent polls, but I don't have 
anything to share with you.
    Senator Risch. Thank you very much.
    Thank you, Mr. Chair.
    Senator Casey. Just a couple of followups.
    Ambassador Benjamin, did you have anything you wanted to 
add on the question of that linkage between poverty or 
desperation and extremism?
    Ambassador Benjamin. I would like to address that.
    I should also say to Senator Risch that we know from 
pockets of polling that the United States is much more popular 
in Yemen than it is in Pakistan. I'm sure there's more data out 
there we can get you.
    I will tell you that last year, the National Defense 
University hosted a large group of Yemeni officials from the 
government and from civil society. I met with them two or three 
times. Many other officials met with them. The desire to engage 
with the United States is very, very powerful. There is a deep 
desire to work together to deal with Yemen's problems.
    So I think that we have strong partners there who, once 
they are enabled by the political situation, will want to 
collaborate with us, cooperate with us, to address some of 
Yemen's pressing challenges.
    Senator Casey, on the issue of poverty and radicalism, I 
think it's important to underscore that the research indicates 
that there is not a direct link between poverty and 
radicalization.
    Poverty is often used by those who incite others to become 
radical in an instrumental fashion to illustrate that their 
position in the world is poor, and it is poor because they're 
being oppressed by others, and, therefore, they should become 
more radical. I think that our findings that are particularly 
relevant to Yemen--and, by the way, just to step back for a 
second, if you look across the range of key terrorist 
operatives, ones who have been, you know, wrapped up, arrested, 
disrupted over the years, there are an awful lot of people who 
have never known real poverty, but who, in fact, because they 
enjoyed some comfort in life, had the leisure to develop 
radical ideas, if you will.
    Nonetheless, it's very important to go at the fundamental 
socioeconomic problems as well, because one of the key drivers 
of radicalization is poor governance and the failure of 
governments to provide fundamental social goods, such as 
services. And this is something that comes out in conversation 
again and again with Yemenis, their frustration that they don't 
have adequate education for their children, that they don't 
have water, sanitation, any number of different kinds of those 
things that we take for granted and we consider to be 
fundamentals of modern life.
    And so that's why the development aspect of our policy is 
so important, not just to lift people out of poverty, which is 
an important goal in its own right, but also because their 
sense that they are partaking of the modern economy, the modern 
world, that they're on an equal footing with others, is vitally 
important. And corruption and poor governance are key drivers--
key drivers--of radicalization.
    Senator Casey. I know we're just about out of time.
    Let me just highlight one part of your testimony and ask 
you one quick question.
    On page 2, Ambassador Benjamin, you say that--and I'm glad 
you have this in your testimony, by the way--``The United 
States has strongly urged and publicly called for the Yemeni 
Government to investigate and prosecute all acts of violence 
against protesters.''
    You don't have to comment on that. I'm just commending you 
for putting that in there. It's important we do that.
    But the point that you make, there's so many you could make 
about the security situation. We don't have nearly enough time, 
but you say on page 3, ``Our counterterrorism strategy focuses 
on building the capabilities of Yemen's security forces to 
counter al-Qaeda, AQAP, effectively.''
    And I know you've addressed this already, to a certain 
extent, but what can you tell us about that? Because, look, 
when our taxpayers see our efforts and our dollars, they want 
to--when I asked about results earlier on other fronts, they 
want to be able to say that we're getting results here and that 
the Yemeni security forces can do this on their own at some 
point.
    What kind of progress report or what kind of indication can 
you give us about how we're doing on that score?
    Ambassador Benjamin. Senator, the view from the 
administration, particularly from DOD, which is doing, of 
course, the lion's share of the training, although State 
Department, through antiterrorism training, is doing a good 
deal as well, is that the Yemenis are improving their 
capacities; that they are making good progress toward being 
able to deal with the threats within their border.
    But it is important to recognize that our engagement in 
Yemen was interrupted for many years. Yemen did not have the 
kind of mentoring programs, the kind of training programs, that 
many of our other counterterrorism partners had. It was really 
when the Obama administration came into office that a review 
was done in March, the beginning of March 2009. It was 
recognized that Yemen was a major challenge in the world of 
counterterrorism.
    And it was not until December, after many conversations 
with the Yemenis, that we really felt that they were on board 
with the project and in fact took their first actions against 
AQAP. This, as you may recall, was just shortly before the 
attempted December 25 bombing of the Northwest flight.
    So this is a military and a set of Ministry of Interior 
that is civilian units that are making good progress, but 
obviously, have a lot to learn.
    So again, vitally important that we get back to the work of 
training these units, so that they can take on the missions 
they need to.
    Senator Casey. Well, thank you very much.
    I know we're out of time, and I'm sure members will have 
questions for the record that you can answer in that way.
    We wish we had more time, but we're grateful for the 
testimony and for your work, the public service work, that each 
of you do, and we'll move to our second panel.
    Thank you very much.
    As we are transitioning, I will indicate that our second 
panel has two individuals testifying. First of all, Dr. 
Christopher Boucek, the Middle East research associate at the 
Carnegie Endowment for International Peace; and also, we have 
Mr. Daniel Green, Soref Fellow at the Washington Institute on 
Near East Policy, who will testify.
    We'll ask each of our witnesses to provide an opening 
statement. As you noticed, the first panel stayed well within 
their time limits, which we try to be roughly within the 5-
minute timeframe, as is true of the first panel.
    I'm not sure I said this for the record, but their full 
testimony will be made part of the record, as will each of our 
two panelists on this second panel. So your full testimony will 
be made part of the record.
    And if you could provide about a 5-minute summary, then 
we'll have a period of questions.
    And, Mr. Green, we can start with you. Thank you for being 
here.

    STATEMENT OF DANIEL R. GREEN, SOREF FELLOW, WASHINGTON 
         INSTITUTE ON NEAR EAST POLICY, WASHINGTON, DC

    Mr. Green. Chairman Casey, Ranking Member Risch, and 
members of the committee, thank you for allowing me to speak 
with you today about the challenges our country faces in Yemen.
    Since the outbreak of protests earlier this year against 
the continued rule of Yemen's President Ali Abdullah Saleh, 
there's been a significant increase in activity of al-Qaeda's 
affiliate in Yemen, al-Qaeda in the Arabian Peninsula.
    Much of this has to do with the fact that the Yemeni 
security personnel are preoccupied with either regime survival 
or regime change in Sanaa or protecting protesters. Most 
notably, the U.S.-trained Republican Guard has been battling 
members of the Hashid tribal confederation in Sanaa and not 
focusing on counterterrorism missions.
    There have also been reports that President Saleh has 
deliberately removed his security personnel from certain areas 
of the country to precipitate a security crisis in an attempt 
to prompt the United States to support him as the only 
solutions to the problem of al-Qaeda.
    The security situation in Yemen's countryside where al-
Qaeda is principally located is deteriorating rapidly. Over the 
last 4 months, AQAP's low-level activities of killings, 
targeted assassinations, thefts, and kidnappings have expanded 
and become more sophisticated. On March 27, as you well know, 
alleged AQAP members seized a munitions factory in the town of 
Jaar in Abyan province. This was followed by a May 29 operation 
where more than 200 alleged AQAP members overran the town of 
Zanjibar, the capital of Abyan in southern Yemen, which is just 
east of the major city of Aden.
    AQAP's siege of Zanjibar is ongoing and the Yemeni military 
is attempting to retake the city with the assistance of local 
tribesmen.
    On June 22, several dozen alleged al-Qaeda prisoners 
escaped from a prison in the port city of Al-Mukalla. These and 
other incidents have contributed to a general sense of 
lawlessness in the countryside, enhancing AQAP's ability to 
mount additional attacks against the U.S. homeland and our 
interests.
    Although conflicts in the capital will affect Yemen's 
future course as a nation, efforts to control the provinces 
more directly affect United States national security interests. 
The key battle with AQAP is in the countryside and the U.S. 
Government needs to pay more attention to this problem and 
craft a suitable strategy to address it.
    As part of this effort, the Washington Institute for Near 
East Policy is conducting a series of studies on the key 
provinces within which al-Qaeda is located. Much like the 
organization of AQAP, the U.S. approach must be decentralized, 
locally based, long-term, and holistic, blending military and 
civil approaches.
    Saleh has traditionally been the greatest impediment to an 
expanded U.S. presence in the countryside. With the President 
convalescing in Saudi Arabia and Yemen's political factions in 
a stalemate, now is the time to consider offering Saleh an 
expanded aid package to help the government stabilize the 
provinces.
    We should adopt a forward strategy consisting of four main 
components. In many respects, these are more about how we are 
organized in Yemen rather than how many resources we are 
devoting to the problem.
    First, the United States needs a robust foreign internal 
defense program. Washington should consider an expanded 
training initiative for Yemen's security services, 
concentrating on both its counterterrorism units and its 
conventional forces. United States trainers should embed with 
Yemeni units deployed to the provinces. The government forces 
would then benefit directly from U.S. training and equipment as 
they confront AQAP in the countryside. Additionally, 
Washington's understanding of provincial dynamics would improve 
considerably.
    Second, the United States needs to establish a foreign 
internal governance strategy to complement a foreign internal 
defense strategy. With the security initiative underway, the 
United States should evaluate the practical aspects of 
decentralizing its governance and development programs moving 
some of them from the capital to the countryside in partnership 
with provincial governors or other officials, including 
possibly tribal leaders. This might be facilitated by having a 
consulate presence in central or eastern Yemen, although I 
realize that's a significant political gesture.
    The decentralized approach would bolster local governance 
and mitigate some of the underlying grievances that AQAP 
exploits to increase its support.
    Third, the United States needs to leverage the human 
terrain more effectively to defeat al-Qaeda. The United States 
should consider a dedicated effort to map Yemen's human terrain 
and gain a better understanding of local communities.
    Additionally, the State Department, the United States 
Agency for International Development, and the United States 
military should extend the tours of select personnel serving in 
Yemen in order to facilitate a deeper understanding of the 
local situation. Within this framework, the United States 
should develop a Yemen Hands initiative similar to the Afghan 
Hands initiative, wherein United States personnel work in the 
country for a number of years. These approaches would even help 
the continuity problems that result from constant personnel 
rotations.
    And then, finally, the United States should consider 
appointing a special envoy to supplement the work of our United 
States Ambassador in Yemen and assist him in regional diplomacy 
efforts to promote stability in Yemen and to ensure that the 
issue of AQAP continues to receive the attention it requires. 
This person would provide a needed alternative to an 
overwhelming counterterrorism narrative that has often prompted 
Yemenis to be skeptical of United States intentions. The envoy 
can also address the growing relationship between AQAP and 
Islamist militants in Somalia and work to craft a strategy to 
confront both.
    Thank you, and I look forward to answer any questions you 
may have.
    [The prepared statement of Mr. Green follows:]

                 Prepared Statement of Daniel R. Green

    Chairman Casey, Ranking Member Risch, and members of the committee, 
thank you for allowing me to speak with you today about the challenges 
our country faces in Yemen.
    Since the outbreak of protests earlier this year against the 
continued rule of Yemen's President Ali Abdullah Saleh, there has been 
a significant increase in activity of al-Qaeda's affiliate in Yemen, 
Al-Qaeda in the Arabian Peninsula (AQAP). Much of this has to do with 
the fact that Yemeni security personnel are preoccupied with regime 
survival or regime change in Sana'a or with protecting protesters. Most 
notably, the U.S.-trained Republican Guard has been battling members of 
the Hashid Tribal Confederation in Sana'a and not focusing on 
counterterrorism missions. There have also been reports that President 
Saleh has deliberately removed his security personnel from certain 
areas of the country to precipitate a security crisis in an attempt to 
prompt the United States to support him as the only solution to the 
problem of al-Qaeda.
    The security situation in Yemen's countryside, where al-Qaeda is 
principally located, is deteriorating rapidly. Over the last 4 months, 
AQAP's low-level activities of killings, targeted assassinations, 
thefts, and kidnappings have expanded and become more sophisticated. On 
March 27, for example, alleged AQAP members seized a munitions factory 
in the town of Jaar in Abyan province. This was followed by a May 29 
operation where more than 200 alleged AQAP members overran the town of 
Zinjibar, the capital of Abyan in southern Yemen, which is just east of 
the major city of Aden. AQAP's siege of Zinjibar is ongoing and the 
Yemeni military is attempting to retake the city with the assistance of 
local tribesmen. On June 22, several dozen alleged al-Qaeda prisoners 
escaped from a prison in the port city of
Al-Mukalla. These and other incidents have contributed to a general 
sense of lawlessness in the countryside, enhancing AQAP's ability to 
mount additional attacks against the U.S. homeland and our interests.
    Although conflicts in the capital will affect Yemen's future course 
as a nation, efforts to control the provinces more directly affect U.S. 
national security interests. The key battle with AQAP is in the 
countryside, and the U.S. Government needs to pay more attention to 
this problem and craft a suitable strategy to address it. To address 
this issue, the Washington Institute for Near East Policy is conducting 
a series of studies on the key provinces within which al-Qaeda is 
located.
    Much like the organization of AQAP, the U.S. approach must be 
decentralized, locally based, long-term, and holistic, blending 
military and civil approaches. Saleh has typically been the greatest 
impediment to an expanded U.S. presence in the countryside. With the 
President convalescing in Saudi Arabia and Yemen's political factions 
in a stalemate, now is the time to consider offering Sana'a an expanded 
aid package to help the government stabilize the provinces. We should 
adopt a forward strategy, consisting of four main components. In many 
respects, these are more about how we are organized in Yemen rather 
than how many resources we are devoting to the problem.
    First, the United States needs a robust Foreign Internal Defense 
program. Washington should propose an expanded training initiative for 
Yemen's security services, concentrating on both its counterterrorism 
units and conventional forces. U.S. trainers should embed with Yemeni 
units deployed to the provinces. Government forces would then benefit 
directly from U.S. training and equipment as they confront AQAP in the 
countryside. Additionally, Washington's understanding of provincial 
dynamics would improve.
    Second, the United States needs to establish a Foreign Internal 
Governance strategy. With the security initiative underway, the United 
States should evaluate the practical aspects of decentralizing its 
governance and development programs, moving some of them from the 
capital to the countryside in partnership with provincial governors or 
other officials, including possibly tribal leaders. This might be 
facilitated by having a consulate presence in central or eastern Yemen. 
The decentralized approach would bolster local governance and mitigate 
some of the underlying grievances that AQAP exploits to increase its 
support.
    Third, the United States needs to leverage the human terrain more 
effectively to defeat al-Qaeda. The United States should consider a 
dedicated effort to map Yemen's human terrain and gain a better 
understanding of local communities. Additionally, the State Department, 
the United States Agency for International Development, and the U.S. 
military should extend the tours of select personnel serving in Yemen 
in order to facilitate a deeper understanding of the local situation. 
Within this framework, the United States should develop a ``Yemen 
Hands'' initiative similar to the ``Afghan Hands'' program, wherein 
U.S. personnel work in the country for a number of years. These 
approaches would even out the continuity problems that result from 
constant personnel rotations.
    Finally, the United States should appoint a Special Envoy to 
supplement the work of our Ambassador in Yemen and assist him in 
regional diplomacy efforts to promote stability in Yemen and to ensure 
that the issue of AQAP continues to receive the attention it requires. 
This person would provide a needed alternative to an overwhelming 
counterterrorism narrative that has often prompted Yemenis to be 
skeptical of U.S. intentions. The envoy can also address the growing 
relationship between AQAP and Islamist militants in Somalia and work to 
craft a strategy to confront both.
    Although any U.S. strategy for Yemen will be difficult to 
implement, it will be harder if there is a limited understanding of the 
country outside the major cities. It is only through a better 
understanding of local dynamics and the ability to influence them that 
U.S. policymakers will be able to make the crucial decisions needed to 
defeat al-Qaeda in the Arabian Peninsula.
    Thank you and I look forward to answering any questions you may 
have.

    Senator Casey. Thanks, Mr. Green.
    Dr. Boucek.

STATEMENT OF DR. CHRISTOPHER BOUCEK, ASSOCIATE, CARNEGIE MIDDLE 
   EAST PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, 
                         WASHINGTON, DC

    Dr. Boucek. Thank you very much.
    Chairman Casey, Ranking Member Risch, members of the 
subcommittee, I'd like to thank the subcommittee again for the 
opportunity to be here today to discuss what is truly a very 
critical issue for the United States, policy toward Yemen.
    And I'd like to start off by saying that I think it's 
important that we keep in mind that there's very much that we 
do not know about what's going on in Yemen right now. It's 
incredibly difficult to get accurate information about what's 
happening. It's more and more difficult to travel throughout 
most parts of the country. And it's a very fluid and changing 
situation, as was noted in the first panel.
    I think it's also important to note that the initial fears 
of violence, mass violence, how bad things could really go, 
have not come to pass. There have certainly been some episodes 
of very severe violence, but it has not devolved into the civil 
war that I think many people were talking about 5, 6 months 
ago.
    That said, it still can go very wrong very quickly. I think 
this goes to the importance of why we're here today to speak 
about Yemen.
    Yemen's problems are very well-known. They were gone over 
at length in the first panel. But I think it bears keeping in 
mind that the failing economy is really at the heart, I would 
argue, of everything that's going wrong in the country.
    We have a situation of rampant poverty--really, truly 
grinding poverty--rampant corruption, unemployment that's 
officially at 35 percent, which would put it on par with the 
Great Depression in this country. In actuality, it's probably 
much higher than that. A whole host of governance deficiencies 
and abuses, resource depletion, and nearly one of the highest 
population growth rates anywhere in the world.
    All that said, I think it's very challenging when we're 
talking about United States policy, because everyone knows what 
we want to avoid in Yemen--state failure or state collapse--but 
no one can really tell you what that looks like or how that 
might happen.
    So I think for policymakers, it's especially difficult 
trying to come up with the prescriptive measures to address 
what you can't imagine and you can't think through what the 
causes may be.
    There are no easy options in Yemen. There are no easy 
policy solutions. If there were, I think we would have come up 
with them by now.
    And I think it's especially important that we look at Yemen 
with a healthy dose of realism about what we can accomplish and 
what we can't. Ultimately, at the end of the day, the United 
States has very little leverage with which to influence events 
in Yemen. However, what we can do is help to alleviate how bad 
things will be.
    And I think it's by making progress against the whole 
spectrum of Yemen's challenges that we can give the Yemeni 
Government more space to breathe and deal with these issues and 
alleviate the humanitarian impact of how bad this will truly 
be.
    Much of American policy toward Yemen has been focused on 
counterterrorism. And despite, I think, all of the efforts of 
our Government and what we heard in the first panel, I think 
the perception in Yemen is still that counterterrorism and al-
Qaeda is what the United States cares about.
    And while there's certainly a need for a robust 
counterterrorism program, there are also a number of other 
things that we can look at and we probably should look at. And 
I would say that corruption and access to water are two of the 
most important issues that we can focus on.
    These are issues that affect every Yemeni. There are things 
that we can do to improve the situation, because security and 
stability will come when the situation and conditions in Yemen 
improve, full stop, for everyone in Yemen.
    We need to make sure that our policy is geared toward 
addressing the public of Yemen, not the government. I think 
that's an important message that we need to maintain.
    And we need to make sure that we continue to focus our aid 
and assistance programs not only on areas where we're concerned 
about al-Qaeda or radicalization, because, again, that sends 
the message that this is the only reason why we're interested 
in Yemen.
    And I think in my testimony I go through a number of 
points, but I'd just like to spend the few minutes that I have 
left talking about two issues: the economy and Saudi Arabia. 
And I really think that after this political crisis ends, one 
way or another, the economy will dwarf this current problem.
    The problems facing the Yemeni economy are overwhelming. If 
Yemen is not yet a failed economy, it's probably on its way to 
being one extremely soon. Food prices, fuel prices, cooking gas 
fuel have all skyrocketed, and this is in the country with the 
most vulnerable population in the region, the poorest country 
in the region.
    On Saudi policy, I think it's important to stress that 
there is not one Saudi policy toward Yemen; there's not one 
Saudi policy on just about anything. I think the Saudis are 
trying to figure all of this out right now, just as many others 
are. But security and stability is the key issue that the 
Saudis are concerned about.
    And with that, I look forward to your questions, and thank 
you again for the opportunity to be here.
    [The prepared statement of Dr. Boucek follows:]

              Prepared Statement of Dr. Christopher Boucek

    Mr. Chairman, Mr. Ranking Member, distinguished members of the 
subcommittee, thank you for inviting me here to discuss U.S. policy 
toward Yemen.
    Yemen presents a complex challenge for U.S. foreign policy. 
Successive American administrations have grappled with implementing an 
integrated policy toward Yemen. There is near unanimity on what the 
United States and its allies want to avoid in Yemen: the collapse of 
the state and greater operational space for al-Qaeda to plan and launch 
attacks against the United States, and its interests, friends, and 
allies. A key obstacle, however, is that no one can really articulate 
what a ``failed'' Yemen looks like, much less the triggers that might 
lead to state failure. It has therefore been extremely difficult for 
policymakers to design a policy when they do not know what they want to 
avoid and do not know how it might happen.
    In large part, U.S. policy toward Yemen has focused almost 
exclusively on the issues of terrorism, counterterrorism, and al-Qaeda. 
To be sure, terrorism and security are major issues with regards to 
Yemen; however, the United States should not allow these issues to 
dominate the relationship. Terrorism and al-Qaeda may be the current 
issues of most concern to Washington, but they are not the greatest 
threats to Yemeni stability.
    In order to improve security and stability in Yemen, U.S. policy 
should be focused on addressing the systemic sources of instability in 
the country. These include a collapsing economy, rampant corruption, 
widespread unemployment, rapid resource depletion, and a series of 
political and socioeconomic challenges that have manifested as security 
challenges to the current government. A policy centered on 
counterterrorism to the near exclusion of other issues will ultimately 
prove counterproductive. While initial gains may be seen, they may be 
short lived. Improving American and allied security will come when 
conditions in Yemen improve.
                      yemen's numerous challenges
    Yemen is facing an unprecedented confluence of crises, the 
combination of which threatens to overwhelm the beleaguered Yemeni 
Government. The country's problems include international terrorism, 
violent extremism, religious and tribal conflict, separatism, and 
transnational smuggling. Attempts to build effective national 
governance are frustrated by porous borders, a heavily armed 
population, and a historical absence of much central government 
control. More than 3 million barrels of oil pass the country's coast 
every day, through treacherous waters where Islamist terrorists and 
Somali pirates have staged several successful maritime attacks, 
threatening to disrupt international commerce and the flow of vital 
hydrocarbons. These challenges not only endanger Yemen's stability and 
regional security, but they also threaten American foreign policy and 
national security interests.
    Interrelated economic, demographic, and domestic security 
challenges are converging to threaten the stability of Yemen. At the 
heart of the country's problems is a looming economic collapse. Yemen's 
oil reserves are fast running out, with few viable options for a 
sustainable post-oil economy. Yemen is the poorest country in the Arab 
world, with most people surviving on less than $2 per day and, in many 
places, just $1 per day. Its population growth rate, which exceeds 3 
percent per year, is among the world's highest. The government has been 
unable to provide adequate educational or other public services for the 
rapidly expanding population, more than two-thirds of which is under 
the age of 24, and illiteracy stands at over 50 percent in general and 
close to 70 percent for women. The failing economy and poorly prepared 
workforce have pushed unemployment to almost 40 percent. The country's 
dire economic circumstances will soon limit the government's ability to 
deliver the funds needed to hold the country together. The population 
is expected to double to 40 million over the next two decades, by which 
time Yemen will no longer be an oil producer, and its water resources 
will be severely diminished. This is currently the greatest source of 
violence in the country; an estimated 80 percent of violence in Yemen 
is about access to water. A rapidly expanding and increasingly poorer 
population places unbearable pressure on the government's ability to 
provide basic services. Domestic security is endangered by Islamist 
terrorism, magnified by a resurgent al-Qaeda organization, an armed 
insurrection in the North, and an active secessionist movement in the 
South.
    Yemen's challenges are compounded by corruption, severe governance 
deficiencies, and an absence of central government control in much of 
the country, as well as by the pending transition in political 
leadership. While President Ali Abdullah Saleh announced in February 
that he would not stand for reelection, he has no obvious successor. 
The post-Saleh government will be severely strained by a combination of 
reduced revenue, diminished state capacity, and three ongoing 
conflicts.
                       yemen and the arab spring
    This year has witnessed historic change sweeping the Middle East 
and the recent wave of unrest has not spared Yemen. Since late. 
January, popular protests in Sana'a, Taiz, Aden, and other cities have 
been ongoing against the government of President Saleh. This recent 
protest movement has mobilized a segment of the population that had 
previously presented little challenge to the Yemeni Government. In an 
attempt to short-circuit the protest movement, the government announced 
a series of economic concessions. It sought to maintain the allegiance 
of the military and security forces by announcing pay raises and even 
access to free food and gas. It addressed the concerns of civil 
servants by putting into immediate effect salary increases for the 
lowest paid employees originally scheduled for October 2011. It cut the 
national income tax by half and reportedly increased some subsidies and 
introduced new price controls. The government also waved university 
tuition fees for currently enrolled students and announced a scheme to 
help new university graduates find employment. Finally, it extended 
social welfare assistance to an additional one-half million families.
    When economic measures failed to quell the discontent, President 
Saleh turned to political concessions. In a speech to the Parliament 
and shura council on February 2, he announced that he would not stand 
for reelection in 2013 and that his eldest son and presumed heir, 
General Ahmed All Abdullah Saleh, commander of the Republican Guard, 
would also not run for President. He ``froze'' the implementation of a 
controversial constitutional amendment eliminating term limits on the 
Presidency. Saleh also stated that regional governors would now be 
directly elected rather than indirectly elected by local councils, a 
little noticed but important change. And finally, he called for the 
formation of a national unity government and the relaunching of the 
stalled national dialogue process, and postponed parliamentary 
elections scheduled for this April to allow time to properly prepare.
    The protest/opposition movement includes several different 
groupings. Youth and civil society demonstrators launched the initial 
protests. It has been estimated that this group represents only a 
fraction of the total number of protesters on the streets. After the 
protests proved to not be short-lived, the ``official'' opposition--the 
Joint Meeting Parties (JMP)subsequently joined the demonstrations. The 
JMP includes the Yemeni Socialist Party, the Islamist Isiah party, and 
several other smaller parties. Overlaid on top of this are personal 
rivalries of the country's power elite, most often characterized by 
enmity and fighting between the Saleh and the al-Ahmar families.
    The current political opposition in Yemen is not unified. They are 
united only inasmuch as they all want to see the Saleh government step 
down. As for what comes after President Saleh, there seems to be 
considerable disagreement.
    As Yemen's political crisis drags on, conditions have severely 
deteriorated. For almost 2 weeks at the end of May, fierce fighting 
broke out in the capital between government forces and those aligned 
with the al-Ahmar family. On June 3, President Saleh and a number of 
senior government officials were gravely wounded when a bomb exploded 
in a Presidential mosque during Friday prayers. Saleh survived the 
assassination attempt, and was transported to Saudi Arabia for medical 
treatment where he remains today. Following the attack, a cease-fire 
was negotiated by Saudi Arabia. The exact nature of President Saleh's 
injuries is not publically known, although it is likely that he will 
remain in Riyadh recuperating for the foreseeable future. A number of 
questions surround his possible return.
                   al-qaeda in the arabian peninsula
    Since its creation in January 2009, the Yemen-based al-Qaeda in the 
Arabian Peninsula (AQAP) has eclipsed ``core al-Qaeda'' as a primary 
terrorist threat to U.S. national security. In an address at the 
Carnegie Endowment for International Peace last December, Assistant to 
the President for Homeland Security and Counterterrorism John Brennan 
termed AQAP ``the most operationally active node of the al-Qaeda 
network.'' In testimony earlier this year, National Counterterrorism 
Center Director Michael Leiter referred to AQAP as the most significant 
risk to the U.S. homeland.
    AQAP has rapidly evolved into an increasingly lethal and agile 
organization, with a proven track record of mounting operations within 
Yemen, regionally and internationally. AQAP thrives on Yemen's internal 
disarray. The government's inability to control territory provides the 
space al-Qaeda craves, using poverty and legitimate grievances against 
a repressive domestic regime to win support. The organization has a 
very fast learning curve, quickly adjusts and improvises, and is very 
adept at exploiting opportunities. AQAP has been clear in stating its 
planned objectives, and it has repeatedly delivered on its threats.
    The attempted bombing of Northwest Flight 253 over Detroit on 
Christmas Day 2009 marked the first time since the September 11 attacks 
that al-Qaeda had successfully engaged a domestic American target. This 
attack was further noteworthy because the plot did not originate in 
South Asia with the al-Qaeda senior leadership--it came from Yemen. The 
Christmas Day attack was followed some 10 months later when AQAP again 
targeted U.S. aviation with the attempted delivery of explosives 
concealed as cargo packages mailed from Yemen.
    Since the start of the protest movement, the Yemeni Government has 
redeployed its counterterrorism assets from going after AQAP and moved 
them to bolster internal security. Islamist fighters--possibly 
including some al-Qaeda elements--have been increasingly active in the 
south of the country. It must be noted that there is a broad range of 
Islamist actors in Yemen, and it is frequently very difficult to 
determine with certainty what group or movement is responsible for 
specific actions in much of the country. In recent weeks, the Yemeni 
Government has sought to take more aggressive action, and has killed a 
number of senior al-Qaeda operatives, including two wanted Saudi 
nationals (Waleed All Mishafi alMishafi Assiri, No. 83 on Saudi 
Arabia's 2009 list of 85 most wanted; and Ahmed Abdulaziz Jasser al-
Jasser, No. 1 on Saudi Arabia's 2011 list of 47 most wanted).
    As the central government's authority continues to recede, the 
operational space for AQAP is increasing. While the Saleh government 
has sought to reassert control in some areas, their ability to fully 
establish control is not known.
                               conclusion
    Developments in Yemen are of critical importance to the United 
States, and Washington has deep and enduring national interests in 
promoting stability and security that go beyond terrorism and al-Qaeda. 
A terrorism-centric U.S. policy may generate short-term gain in the 
struggle against violent extremism, but it also risks creating greater 
problems down the road.
    There is no dispute that American policy toward Yemen must include 
a robust counterterrorism element, but this cannot be at the exclusion 
of all other issues. The United States and its allies can work to 
improve security in Yemen by focusing on issues other than direct 
action counterterrorism operations. Washington should also focus on 
other indirect measures that can help bolster security and stability in 
Yemen. For instances, aiding the Yemeni Government in drafting 
effective counterterrorism legislation will help empower law 
enforcement officials to charge and prosecute individuals engaged in 
and supporting terrorism. Judicial training programs can help promote 
fairer practices and improve conviction rates. There is research that 
demonstrates that abuse by police, intelligence, and domestic security 
agencies leads to future recruitment and radicalization. Efforts to 
professionalize these services can help reduce such effects. 
Improvements in prison conditions will not only help to reduce 
recidivism, but it will also help decrease the number of now-infamous 
``escapes.''
    Serious and sustained effort must also be focused on Yemen's many 
other challenges, including those outlined above. Two key issues that 
should receive more attention are corruption and access to water. These 
issues affect almost every Yemeni. Land reform is another crucial area. 
Support for programs to consolidate land registries and establish 
lawful ownership can help diffuse conflict.
    The primary policy challenge with regard to Yemen is how to build 
the relationship between the Yemeni people and their government. This 
requires building the capacity of the Yemeni Government to be 
responsive to the needs of its people and to expand the capability of 
the government to deliver basic services throughout the country. This 
will necessitate measures to bolster the government's legitimacy as 
well as its ability to exercise control throughout the entire national 
territory. It will also likely require empowering local governments to 
administer their affairs in harmony with priorities mutually developed 
by Sana'a and the governorates, as well as sharing revenues to fund 
local development.
    There is little disagreement that Yemen is a critical state-at-
risk, beset by a daunting set of challenges. In spite of this, the 
United States has yet to craft and implement a unified strategic policy 
for Yemen. Washington must identify what it seeks to accomplish in 
Yemen. These goals will also need to be tempered by reality. Moreover, 
Washington has very little leverage with which to influence events in 
Yemen. We will need to be realistic about what the United States--and 
the international community--can accomplish in Yemen. Ultimately, many 
of Yemen's problems cannot be solved. Resource depletion, economic 
failure, and explosive population growth represent an almost 
insurmountable set of challenges, and these conditions cannot be 
completely reversed. Rather than eliminating these factors, U.S. policy 
can help to minimize their impact. If we work to make small 
improvements across the spectrum of challenges, we can reduce the 
severity of their impact, lessen the humanitarian suffering, and 
bolster the Yemeni Government. This will hopefully improve U.S. 
security and bolster Yemeni stability.

    Senator Casey. Thanks very much.
    Both panels did a good job on time. You're setting a good 
example.
    I wanted to, not by way of a competition or a challenge 
between panel one and panel two, but Doctor, I wanted to ask 
you first, when you outlined the two among many challenges, but 
you highlight two that you spoke to and it's in your testimony, 
both corruption and access to water, when you hear USAID's 
testimony, when you hear the State Department's testimony, when 
you examine and consider other evidence on the record, how do 
you assess U.S. efforts on just those two, anticorruption 
measures and strategies to help on the question of water or 
other kind of basic needs?
    Dr. Boucek. Thank you. I think the points that were made 
about efforts to improve irrigation canals, I think those need 
to be commended. But there's an awful lot more that we can and 
should be doing, right?
    It's been estimated that 80 percent of violence in Yemen is 
about people fighting over water, or access to water, the land 
that controls water. I think it's very easy, if we're looking 
at TV coverage or media coverage, to think that it's all about 
al-Qaeda and violence, and actually it's something else.
    So I think we can do more in this area, I'd say helping 
with rain collection, helping with programs to deliver the 
message about how you use water and what it has to do with 
security and stability. I mean, this is a huge area that we can 
do more about.
    It's terrible to think that when it rains in the capital, 
there are children that die, because of drowning in a country 
that's running out of water. So I think we can do more to help 
Yemenis collect water and reintroduce traditional methods of 
irrigation, et cetera.
    On corruption, I don't think we can do too much on any of 
these issues, right? I mean, we can always probably do more.
    And I think these are the two issues that not only affect 
every Yemeni, but I think increasingly are going to be the 
sources of future violence and instability.
    Senator Casey. When you look at the question of those 
priorities that you outline, water and corruption, and you set 
that aside or next to the efforts we're undertaking now, both 
dollars and in terms of the number of initiatives or number of 
strategies, are we trying to do too many things? Or do you 
think we should concentrate more on these priorities? Or what's 
your sense of the way we've been both prioritizing and being 
successful in the results we get?
    Dr. Boucek. My perception is that American policy is geared 
at counterterrorism and al-Qaeda, No. 1, and everything else is 
after that. And I think we all understand what the reasons for 
that are.
    But I don't think that we are doing enough to focus on 
these other issues. I think we have a very immediate, near-term 
look at this problem. And this is going to take years to deal 
with.
    So I think if you look at the central problem, it seems to 
me, in Yemen is how do you improve the relationship between the 
government and the people? How do you build capacity in the 
Yemeni Government to be a more responsive government, able to 
deliver more services? And how do you build the belief in the 
people to think that their government is not working against 
them. And that is not a fast-solving problem.
    I think anyplace where you have receding state authority 
this is an issue, and it will be an issue going forward, not 
just in Yemen, but throughout large parts of the world.
    Senator Casey. Mr. Green, I wanted to ask you about--you 
outlined in your testimony four policy ideas. Number one--I'm 
shorthanding this for purposes of the question--but number one, 
an expanded training initiative; number two, an internal 
governance strategy, a more robust effort there. You also 
outline a mapping of Yemen's human terrain, a kind of new 
initiative there similar to what we're undertaking in 
Afghanistan. And then, fourth, the appointment of a special 
envoy.
    When you make these recommendations, are you saying that 
we're not currently undertaking any of them? Or do you see some 
of them as an expansion of what we're doing? Or as I was saying 
before, more of a focused approach?
    Mr. Green. Well, sir, I served in Iraq and Afghanistan. I 
served a year with the State Department in Afghanistan, served 
with the Navy in Afghanistan and Iraq. And you see again and 
again the State Department, USAID, having difficulties 
adjusting to the challenges of irregular warfare and a 
decentralized enemy.
    And when I started working on Yemen, it's a very familiar 
situation to me, although it's not, obviously, Iraq and 
Afghanistan. And a lot of it's capital-centric. It is focused 
on working with local partners that may or may not work in the 
areas we're mostly concerned with. It's overly centralized. 
It's very focused on process and sort of the factions that are 
in the national capital.
    And if I could tell you what the political--I can't tell 
you what the political opposition is in Shabwa province, where 
the al-Awlaki tribe is. That's the political opposition we need 
to be worried about, in addition to certainly that which is 
going on in Sanaa. But we don't have a good understanding of 
the human terrain.
    Just now, in Afghanistan, we're really mapping the human 
terrain, here 8 or 9 years into the conflict. And, in Iraq, it 
almost happened by accident that we--for example, they had the 
Anbar Awakening. Our sensitivity to these nonstate types of 
identifies is not particularly well-developed.
    And I think most of our human terrain is probably focused 
on the counterterrorism mission, sort of find, fix, and finish, 
but not about the human terrain to leverage it, and showing 
that we have a sensitivity to the interests of the people.
    Senator Casey. And you mentioned in your testimony a number 
of times about the effort you think we should undertake in the 
countryside.
    Mr. Green. Yes, sir.
    Senator Casey. And how do you best describe that? Because I 
realize that sometimes we make efforts in another country that 
are focused on the capital or a big urban area. But can you 
describe what you mean by that and why it's of particular 
concern in Yemen?
    Mr. Green. Yes, sir.
    You know, again, going back to Iraq and Afghanistan, we 
always seem to just have to relearn some of these lessons that 
so much of the situation out in the countryside affects our 
interests.
    And our ability to influence that is often through national 
level programs or national implementing partners that, for one 
reason or another, don't go out to areas that are either too 
dangerous or aren't considered strategic. And I think that's 
the same problem we have in Yemen.
    And, unfortunately, no one wants to send anyone into harm's 
way. But at the same time, no one wants to see al-Qaeda have a 
successful attack. Somewhere between those two left and right 
parameters there's got to be something we can do that can put 
folks into these areas, to show the American face isn't just 
counterterrorism strikes but people have an interest in their 
livelihoods.
    Senator Casey. Is there a model that you can point to in 
Iraq or Afghanistan, or efforts that are anywhere, where you 
think we can draw a lot of good inspiration from that's not 
capital- or Embassy-centric, but is more kind of local and 
countryside in nature?
    Mr. Green. Yes, sir. I worked at a provincial 
reconstruction team in Afghanistan for a year. And that is one 
attempt. There's also district support teams, which are three-
man or three-person elements in Afghanistan, for instance.
    But in Yemen, we have something called civil military 
support elements, which are an interesting innovation there. 
The people who principally man, I believe, are the military, 
but they wear civilian clothes. And a lot of what they're doing 
is sort of doing that humanitarian work and human terrain 
mapping.
    And it's a very small program. It's an unclassified 
program. But I think that's a way that we might be able to 
address some of these problems.
    My preference, of course, would be State Department AID 
people. But our force protection concerns are so great. 
Obviously, no one wants to lose an American life unnecessarily. 
But you can't have a policy of having holistic, long-term 
strategy with an Embassy that's on ordered departure. These are 
incompatible goals.
    And I understand the need to--I don't have the 
responsibility, obviously, of governance here, but we have a 
lot of lessons we learned in Iraq and Afghanistan, and we seem 
to be chronically forgetting some elements of those.
    Senator Casey. But you said in Yemen now we have a kind of 
a foundation for that. But you think it needs to be----
    Mr. Green. Yes, sir. I think it needs to be expanded 
significantly. And frankly, we have a generation of State and 
AID folks who've been in ambushes, who've been in firefights, 
who've been out in these areas, where it's pretty dodgy. And 
frankly, Yemen, in some ways, looks, you know, peaceable 
compared to what some of us have gone through.
    Senator Casey. Thanks very much.
    Senator Risch.
    Senator Risch. Thank you.
    First of all, both of you, I appreciate your pragmatism on 
these issues. Sometimes we don't get a lot of pragmatism here. 
And we're not always good at pragmatism. So I appreciate those.
    And I appreciate your views that we really should focus on 
what we can do, not only what we should do, but what we can do, 
because we lose sight of that a lot of times, and we get bogged 
down pretty badly, if we lose sight of what we can do.
    Mr. Boucek, you said it was getting more difficult to 
travel around the country. In what regard? Are you talking 
about mechanically, physically? Or are you talking about from a 
security standpoint? Or what are you talking about?
    Dr. Boucek. What we've seen is, as the situation has 
deteriorated in Yemen, it's become less safe for foreigners, 
for Americans, to travel in lots of parts of the country. And I 
think especially, right now, there's some sort of a limbo. It's 
unsure.
    The President is recuperating in Saudi Arabia. The fighting 
is in some sort of a lull. And I think people are apprehensive 
and fearful that fighting can start again, even in the capital, 
where most foreigners spend most of their time.
    Senator Risch. Appreciate that. I'd appreciate hearing both 
of your views on what, from the average--if there is such a 
thing--Yemeni, how do they view Americans?
    Mr. Green. I think, like anything, if your principal 
experience with a country is kinetic, you tend to have a darker 
perspective.
    For example, when I was in Afghanistan, whenever I met an 
infantryman, his interaction with Afghans was usually in 
firefights, so he often had a fairly dim view of Afghans. 
Whereas, from my perspective, most of mine were building 
schools and building roads and things of that nature, so I 
tended to have a positive perspective.
    I think my sense is the Yemenis are very curious about 
Americans and not many of them ever met any of them, but the 
little interaction they've had is, if it's been through let's 
say a Predator strike or something like that, they may have a 
dim view of that. But it just also goes back to whether there 
were civilian casualties involved in that as well.
    I think my sense is that there's an openness to our 
presence there. But how we're there is more important than the 
fact we're there, I think.
    Senator Risch. Mr. Boucek.
    Dr. Boucek. I think I would have a bit more of a 
pessimistic view on this. And not having any data in front of 
me, I would venture to guess that probably the view of the 
United States is probably less positive than was alluded to in 
the previous panel.
    There's a difference, I think, between perceptions of 
American foreign policy, what U.S. Government has been 
perceived as doing, if it's counterterrorism operations or 
support for a government that's unpopular, and how individual 
Americans are received. And I think it's very difficult to get 
accurate polling data or public perception data out of that. 
But I think a wide view, I would venture to guess, is that it's 
less positive instead of more positive.
    Senator Risch. Finally, I want to explore one other area 
that we really haven't talked about much, and that is as we 
move forward, how do the natural resources of the country--gas 
and oil--play into all of this?
    Mr. Boucek, you want to take a run at that?
    Dr. Boucek. The oil will run out sooner rather than later 
in Yemen. I think there have been a variety of estimates.
    Within 10 years, I think, is the commonly thought idea of 
when the oil is going to run out, commercially viable, 
extractable oil.
    Natural gas will generate revenues for the next 20 years or 
so through royalties and revenues, about $20 billion over the 
course of the next 20 years, so $1 billion per year. That will 
not make up for the shortfall.
    The economy is in freefall. And the big concern, I think, 
is any government that comes next. Who knows what it'll be 
like, but I'm afraid they will look at the balance sheets and 
they will see that there is no money to pay for anything. 
There's no money to pay for things right now. There's a huge 
budget deficit from last year.
    And if they enact all of the current spending, plus the new 
spending that was announced at the beginning of this year 
around the start of the protest movement, that would equal 
another 3.5 percent, which they do not have the money to make 
up.
    So, either way, Yemen is headed for financial catastrophe.
    Senator Risch. Mr. Green.
    Mr. Green. Sir, I agree with most of what Chris said.
    I think we do have to focus also on the state of the 
economy over there. And I think, for example, Under Secretary 
of Defense Brinkley's office does a lot of great advisory work 
with private industry in Iraq and Afghanistan. I know there's 
some effort or it has already occurred they are being wrapped 
into USAID.
    But I think focusing on the private sector is absolutely 
central. Obviously, we do that here first in the United States. 
But we have to do that as well in Yemen, and not look at it 
simply as a development crisis.
    I mean, there are plenty of people there who are involved 
in business and want to make money and want to help their 
communities. I think we need to focus on that as well.
    Senator Risch. Mr. Boucek, you said they were going to run 
out of oil. Is that because they haven't done the exploration 
that they need? Or is it just a fact that physically that their 
reserves are depleted?
    Dr. Boucek. I think it's the result of several factors. One 
is the big international operating companies do not typically 
go to Yemen to look. There are only, I think, 6 production 
blocks that are productive in Yemen out of 90 or so. And Yemen 
is not blessed with the hydrocarbon resources that some of its 
neighbors are.
    More and more, it's a difficult environment to operate in. 
And the easily extractable oil has already been extracted.
    So at its height, Yemen was producing maybe 450,000 barrels 
per day. That dropped, maybe, to just under 200,000, and 
recently, it was probably under 100,000, compared to 9.5 
million barrels per day in Saudi Arabia.
    Senator Risch. Thank you.
    Thank you, Mr. Chairman.
    Senator Casey. Thanks, Senator Risch.
    I want to ask Dr. Boucek about some of the other points you 
made in your testimony, or the written version, the 
conclusions.
    You mentioned in the second paragraph of your section on 
conclusions some really interesting topics which we can often 
easily overlook. And you're saying, ``Judicial training 
programs can help promote fairer practices and improve 
conviction rates. There's research that demonstrates that abuse 
by police, intelligence, and domestic security agencies leads 
to future recruitment and radicalization.''
    What can you tell us more about that, but I guess, more 
particularly, what can you tell us that we could be doing or 
are doing to try to move forward a judicial training program or 
other help on their judiciary?
    Dr. Boucek. Thank you.
    I think what I would say is that if our goal is to improve 
security and stability in Yemen, we can work to improve the 
security of the country through indirect means as well as 
through the direct counterterrorism measures that have been 
discussed earlier.
    I think you can make progress all across the line. You can 
improve the investigative skills to make sure that the 
authorities apprehend the right individual. As you noted, in 
the testimony I wrote that abuse and arbitrary detention leads 
to future recruitment and radicalization, not just in Yemen but 
throughout the region.
    We can improve the abilities of the judges and prosecutors 
to get convictions. We can improve the ability of the Yemeni 
authorities to charge people by helping them draft and 
implement effective counterterrorism legislation to criminalize 
the behavior that we would like to see criminalized.
    We could help improve prisons. This is a huge area that we 
should do more about. Bad stuff comes out of prisons in the 
region, and we want to make sure that people, when they do get 
convicted, stay incarcerated, something that doesn't always 
happen in Yemen.
    So I think there are things that we can do all along this 
process, short of arming and doing the kinetic counterterrorism 
operations.
    I'd also add that I think, in those programs, you can do 
more rule-of-law training. You can do more English-language 
training. You can do more training on the connection between 
abuses and grievances and recruitment, radicalization, 
criminality, et cetera.
    I think this is an area that we can focus on. And if it's 
something that the American Government can't or shouldn't be 
doing, we have lots of friends and allies that do this very 
well. And we need to look at this in a broader sense, I 
believe.
    Senator Casey. And I guess you would argue that that would 
be linked to your focus on anticorruption? I mean, ultimately, 
that's part of what a good judiciary would result in.
    And you also say, toward the end, you talk about the 
relationship between the Yemeni people and their government. 
Tell us more about that, because it's a broad statement, and 
again, something we often take for granted. But the confidence 
in, or legitimacy for or about, and the support for, 
ultimately, a government like the people of Yemen have 
experienced will determine so much.
    And I just want to get your sense of what you mean, what 
undergirds that statement about the relationship between the 
government and its people?
    Dr. Boucek. We and our allies, I think, can do a lot to 
help improve the capacity of the Yemeni Government to be a more 
responsive government, able to deliver more civil services, 
able to be in greater control of the territory in Yemen.
    But also, I think when everyone is equal before the law, 
when everyone is prosecuted the same, when corruption at the 
top and at the bottom goes through the same process, and when 
it's a process-driven situation instead of a personality driven 
situation, or who I know to help me get something--and starting 
off knowing that none of this is going to be easy to do or that 
it's going to be completely solvable. I think, if we make 
improvements on that, because I think there is a perception 
right now that the government is not working in the interests 
of the people. If it's economics, if it's social, education 
opportunities, then I think you can do more to improve that 
relationship by addressing those issues that common Yemenis 
complain about, about government abuses, about the unequal 
application of the law.
    Senator Casey. And I was going to ask, Mr. Green--I'll ask 
both of you this question, but I'll start with Mr. Green.
    There are a number of scenarios that some have sketched as 
to the succession that will take place. And do you have any 
sense of what's most likely or what's, maybe, most optimal for 
the people of Yemen, in terms of transition to a new President, 
a new government, a new era, really, after more than 30 years 
of rule? What's your sense of that?
    Mr. Green. Sir, obviously, a lot of this hinges upon what 
President Saleh's going to do, whether he comes back or not.
    But it seems as if the factions in the capital are, sort 
of, at a military stalemate. And I like to think of it as 
whether it's going to be a revolution, it's going to be 
evolution, or deevolution.
    And, I mean, there are many ways it could go, for sure, and 
that's just in Sanaa. You know, Taiz and Aden are other things 
that are going on.
    I think, certainly, there's going to have to be some sort 
of a process, and maybe August 2 might be the date. That will 
have been 60 days since President Saleh left for Saudi Arabia, 
where the constitution says there has to be an election around 
that date.
    I think that might be a forcing mechanism for some sort of 
way forward. But if there is an election, it has to have the 
confidence of the people, and it has to be perceived as 
legitimate. And there has to be some likely outside participant 
to help monitor that. You know, and all the normal suspects, if 
you will, the United States, even Saudis, are sort of tainted, 
to one degree or another. Maybe unfairly, but they are by some 
population groups.
    So it might require a U.N. presence or some other presence 
to give people confidence that their vote matters.
    Senator Casey. What do you think is optimal, though?
    Mr. Green. I think, frankly, there might be an evolutionary 
process. We're not going to see, I think, a complete setting 
aside of Saleh and all his supporters. I think they're a part 
of the political geography. They're not going to go away. 
Certainly, no one can force them to, if only for the fact that 
they're armed.
    And there might be some sort of parliamentary system that 
develops or elections where some of these factions feel like 
they have greater representation, and there may have to be some 
element of power-sharing. But getting people to walk back from 
shooting at each other is going to be a process, and making 
sure they have confidence in the electoral process is also 
another challenge to meet that goal.
    Senator Casey. Doctor, anything on this?
    Dr. Boucek. I think we don't know how things are going to 
turn out. I think, most likely, I would tend toward thinking 
that there will be a system where the elites in the country, 
the power elites inside the regime and outside the regime, come 
together to address some sort of a negotiated settlement, where 
you don't see much of a change in the system.
    And I think there's a belief in Yemen and in the region 
that no outside actor really wants to see a wholesale change. 
And I think, should that happen, maybe it's--I don't know if 
this would be evolution or how they would fit in with this. I 
think, you know, the youth or the civil society protesters who 
started all this, they're going to be the ones to lose out, 
because they don't have a constituency behind them. And this is 
the one group that's talking about the things that our 
Government talks about, if it's accountability or transparency 
or freedom or democracy.
    I would like to see elections. I'd like to see a 
transition. I think how the Yemeni Government will deal with 
that has yet to be seen. I think, you know, there's a lot of 
things that are still unclear.
    But it seems to me that calling for early elections and 
then moving toward some sort of a transition is what has to 
happen to get out of this situation.
    The President has already said that he won't stand again 
for reelection in 2013, that his son will not contest the 
election.
    I think we need to start this process and move toward it. 
And where the United States and the international community can 
be most helpful is help to prepare for that eventuality, help 
train voter registers, help reform voter rolls, all these 
things that will need to happen, because the GCC and the plans 
that have been endorsed call for very quick elections. I'm not 
sure that's either in the best interests of Yemen or security 
and stability in the region.
    Senator Casey. Mr. Green, how about al-Qaeda? We hear 
reports all the time about al-Qaeda generally, and obviously a 
lot of news and a lot of focus on the May 1 and 2, with regard 
to the killing of Osama bin Laden, but of course an appropriate 
shift in focus now to a place like Yemen and AQAP.
    And I think most security experts, I guess, would say 
that's where they're strongest or at least seem to have the 
strongest foundation in place.
    But what's your assessment today with regard to AQAP, its 
strength and viability, and al-Qaeda, more generally, today 
versus where we were 6 months ago?
    Mr. Green. You know, whenever you look at insurgencies and 
also for counterterrorism--or, excuse me, terrorist 
organizations, there's always a lot of sort of low-level 
activity that's often mistaken as criminality. You'll see bank 
robberies, you'll see occasional killings.
    And a lot of these are the precursors or the beginning of 
an organization. They're gathering money to fund future 
operations. They overran, for instance, a munitions factory in 
Jaar, acquired more weaponry.
    The fact that they were able to mount--and I don't 
understand exactly how many people were involved, but at least 
200, if not more. To overrun Zanzibar in Abyan province is a 
real measure of the level to which they have advanced. It takes 
a lot of people, at minimum, but also leadership and 
sophistication, the ability to communicate, and, frankly, the 
confidence of the regular foot soldier in his leaders to take 
and hold land.
    That's a real measure of the state of that particular 
organization. That's as true for the Taliban as it is for any 
Iraqi insurgency group.
    So I think they now have an internal sort of, say, safe 
haven. A lot of our focus has been on the violence in Abyan 
province. But I like to think sometimes there are areas that 
have no violence. That doesn't mean that al-Qaeda doesn't 
control it. They control it so thoroughly that there is no 
violence.
    I think if you look at some of the provinces, like Marib 
and Shabwah, Abyan, these places--maybe not in Abyan--but there 
is an absence of violence, which doesn't mean violence is 
absent, if you will. I think they have everything they really 
need right now to plan, to fund, to recruit.
    You know, the Internet obviously makes it very easy way for 
them to influence, which they've done repeatedly.
    Senator Casey. So you'd say that, whether it's comparing 
now to 6 months ago or even a year ago, you'd say that AQAP's 
capacity to launch an attack, a strike, on our homeland has 
been enhanced as opposed to degraded?
    Mr. Green. Their capacity to do so has been increased. We, 
of course, have responded to the various attacks with more 
preventive measures and in some cases going after them.
    But with an Embassy that's on lockdown, that's on reduced 
manning, we're not completely blind, but we are very much 
operating in sort of the dusk, if you will, or almost 
nighttime.
    We don't have a good understanding of what's going on, I 
believe, outside of the capital region or the big cities. That 
makes it very difficult to plan. And we have to, I think, incur 
some risk and put some of our personnel out in areas.
    I'm not saying necessarily put 12 Americans in Marib 
province overnight, but there are ways of doing this that can 
get us a little more forward-deployed and inside the country, 
if only to improve our understanding of the dynamics in the 
countryside, let alone influencing them or shaping them.
    Senator Casey. Doctor, anything on the security front, with 
regard to AQAP or al-Qaeda generally?
    Dr. Boucek. Well, I would just add to that I think we see 
the undergoverned spaces are getting larger in Yemen, as the 
state's authority recedes, either by choice or by----
    Senator Casey. You say ungoverned or undergoverned?
    Dr. Boucek. Undergoverned, I would say.
    Either as the state's authority and presence and capacity 
to do this recedes intentionally or as things fall apart in 
Yemen, I think we see in AQAP an organization that is 
increasingly lethal, increasingly opportunistic, that 
demonstrates a very quick learning curve.
    Very clearly, AQAP has the intention and capacity to strike 
locally in Yemen, regionally and internationally. And 
increasingly, it seems they have the capacity to do so.
    Not just in Yemen, but I think the other side of this is 
the potential for AQAP or those affiliated or aligned with AQAP 
to reach back into communities in this country and in Western 
Europe through English language, non-Arabic language materials, 
through the Internet, to reach individuals that are not 
otherwise part of the counterterrorism landscape.
    And just today, there's another issue of Inspire magazine 
that's been released. It's a clue the organization is 
continuing to do this, despite everything that we see going on 
in the country.
    Senator Casey. Well, I think we're ready to wrap up, but 
anything that either of our witnesses would want to say for the 
record that would be of interest, or an area that you think we 
should, here in the Senate or the House, especially here in the 
Senate, areas that you think we should focus on the next couple 
of months?
    Mr. Green. Just one thing. I realize we have challenging 
economic times and fiscal times. And I think we sometimes 
mistake throwing lots of resources at a problem as a possible 
strategy. I really do think how we're organized matters 
sometimes a heck of a lot more than how much money we're 
spending on things.
    Again, my experience is working in isolated forward-
operating bases in Afghanistan and Iraq, and working with 
Afghans who had never met an American, and I'm not saying that 
that's what would occur in Yemen, but we have to incur some 
risk on our side of getting out behind these concrete walls in 
Sanaa and really living amongst the people out in the 
provinces.
    And we can start with provinces that are relatively safe, 
safer at least--we don't have to start where al-Qaeda is the 
strongest--if only to learn lessons. But I think too frequently 
we get focused on how much money we're spending or not 
spending. And I realize at the end of the day, it's very 
important, of course. But I think that's the big challenge.
    I don't know how much can be done from the Senate side, but 
it's certainly something to think about.
    Senator Casey. Thank you.
    Doctor, anything before we go?
    Dr. Boucek. I'd just add to that I think recognizing the 
economic challenges, and I don't want to underestimate Yemen's 
ability to absorb money, because I think as much money as we 
want to spend in Yemen, we can find people to spend it. I think 
as was just mentioned, we don't need to find high-cost, high-
impact solutions for some of these challenges. I think there 
are lower-cost, high-impact things we can do that would make a 
big difference.
    But I think this comes back to a fundamental challenge I 
see is that we do not resource this issue, Yemen, the way we 
talk about it.
    By that I mean we've heard all kind of counterterrorism 
officials talk about how AQAP is the biggest threat and that 
Yemen is the biggest challenge, but we do not resource it 
anywhere near the level that we do, say, Pakistan.
    And we know what will happen in Yemen if we don't do 
anything. And after the next attack or after things fall apart 
further in Yemen, it will get more difficult.
    So as painful and as difficult as these choices are now, 
there are worse, fewer options in the future.
    Senator Casey. We're out of time, I know, but thank you 
very much.
    The record will be open for questions that members can 
submit, but we thank you for your testimony and grateful for 
the time you spent with us.
    We're adjourned.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Responses of Deputy Assistant Administrator Christa Capozzola to 
              Questions Submitted by Senator John F. Kerry

    Question. Sanaa could become the first capital city in the world to 
run out of water. Some analysts have said that much of the violence and 
instability in Yemen is related to water shortages.

  <bullet> How is the United States, in conjunction with the 
        international community, addressing this growing need in a 
        sustainable way?

    Answer. Yemen is one of the world's 10-most water-scarce countries. 
In many of Yemen's mountainous areas, available drinking water is down 
to less than 1 quart per person per day. The nation's aquifers are 
being mined at an alarming rate; groundwater levels have been falling 
by 10 to 20 feet annually, threatening agriculture and leaving major 
cities without adequate safe drinking water. The water crisis is the 
result of mainly five factors: rising domestic consumption, poor water 
management, corruption, absence of resource governance, and wasteful 
irrigation techniques. The water-intensive qat cultivation presents an 
extra burden on the already limited water resources of Yemen; it also 
fuels corruption, creating a destructive cycle.
    The violence and instability in Yemen emanates in part from 
political, grassroots sentiments fostered by the Arab Spring. The lack 
of a political solution has exacerbated a crisis which has destabilized 
Yemen's economy on a number of fronts. It has also hampered the 
government's ability to provide basic services and maintain 
infrastructure--including water networks.
    Availability of clean drinking water and management of remaining 
ground water resources are two key issues on which the international 
community has engaged the Yemeni Government, academics, 
agriculturalists, and communities as a way of encouraging open 
discussion and moving toward solutions. Donors assisted the Republic of 
Yemen Government in establishing the Water and Environment Ministry and 
developing a National Water Sector Strategy and Investment Program; 
however, the Ministry's legal oversight is limited and the four 
government institutions charged with implementing the strategy need to 
be strengthened. USAID and others are working with the Yemeni 
authorities on environmental and water policy reforms and on public 
awareness campaigns to increase public engagement on the issues.
    At the subnational and community level, USAID is implementing 
activities to promote effective water management techniques for 
household and agricultural purposes, including: improving water 
harvesting techniques for rainwater; rehabilitating water storage/
distribution structures; training farmers on point source irrigation 
systems; promoting water-efficient crops; and demonstrating low-cost 
filtration systems, readily available in Yemen, to encourage water 
management and sanitation at the household level. USAID has been 
involved in the water sector in Yemen since the 1970s; at that time, 
Yemen was more effectively managing its water resources. However, given 
the existing political underpinnings to the situation, current 
activities are not guaranteed to solve the problem.
    Additional donor activity includes: (1) The World Bank is focusing 
on urban and rural measures to promote soil conservation, modern 
irrigation methods, and public awareness of water conservation; (2) 
Germany is assisting municipal water utilities to improve cost recovery 
and fees; (3) Japan is preparing to initiate rural water supply 
projects at 19 sites in five governorates; and (4) the Dutch-funded 
urban and rural water, sanitation, and irrigation infrastructure 
projects and worked with the government to increase institutional 
capacity and promote water sector reforms.

    Question. How can the United States, while continuing to pursue a 
robust counterterrorism strategy and partnership, better demonstrate to 
the Yemeni people that United States-Yemeni cooperation extends beyond 
counterterrorism?

    Answer. The U.S. Government is committed to working closely with 
the Yemeni people, as well as with Yemen's neighbors and the 
international community, to bring peace and stability to a country that 
has experienced too much bloodshed and hardship over the past several 
years.
    The United States can continue to demonstrate to the Yemeni people 
that our cooperation extends beyond counterterrorism by continuing to 
respond to evolving conditions on the ground with targeted and 
effective assistance programming. USAID engages citizens and their 
leaders on issues that concern daily life in Yemen, demonstrating to 
the Yemeni people that United States-Yemeni cooperation extends beyond 
counterterrorism. Livelihoods programs work with the most vulnerable 
populations on activities that address basic development needs in 
health, education, and agriculture, including mobile medical clinics, 
small enterprise support, and provision of agricultural inputs like 
seeds and fertilizer. Programs at both the subnational and national 
levels help civil servants and political leaders develop capability for 
managing community services and responding to citizens' needs.
    USAID humanitarian programs respond to the Saada conflict in the 
north and to recent population displacements in the south by providing 
clean water, emergency relief commodities, medical equipment and care, 
and food assistance.

    Question. In light of the difficult operating environment in Yemen, 
and the fact that Embassy staff are on ordered departure, please 
describe any impediments to operating and disbursing U.S. assistance 
funding in the country.

  <bullet> How is USAID adapting its program to a deteriorating 
        security environment?

    Answer. In response to political turmoil and security challenges in 
Yemen, USAID is adapting its program in a number of ways. For example, 
USAID is increasing the number of quick impact projects and expanding 
geographic targets to meet the emerging relief and recovery needs in 
both urban and rural communities. Since public utilities, schools, 
hospitals, clinics, and other service providers are suffering from lack 
of supplies, fuel, and staff, USAID is providing assistance to help 
maintain much needed social services in some of the highest priority, 
least accessible areas around the country.
    USAID is also responding to acute emergency requirements at the 
sites of large-scale protests in four cities by providing medical 
equipment and commodities to health facilities that are servicing those 
wounded in the protest violence. The number of cases served by mobile 
medical teams has increased due to temporary clinic closures; USAID 
continues to equip and support the operations of these teams despite 
the rising fuel and equipment costs.
    USAID recognizes that maintaining development and humanitarian 
assistance programs in Yemen is essential to ensuring that the U.S. 
Government continues to show commitment to the Yemeni people. USAID 
programs continue to operate throughout the country; however, project 
implementation has slowed due to security challenges, fuel shortages, 
power outages, evacuation of USG and implementing partner staff, and 
other issues. While many implementing partner expats are returning, 
they continue to face challenges such as: (1) Access in some areas 
remains a persistent constraint to monitoring and responding to 
emerging needs; (2) the absence of government interlocutors and 
international organizations due to evacuations has impeded progress, 
particularly in rural areas; and (3) sporadic availability of foreign 
currency has made payments for goods, services, and staff salaries 
difficult for implementing partners.

    Question. A May attack against an oil pipeline in the Marib 
province severely disrupted Yemen's oil flow for nearly 2 months, 
further exacerbating Yemen's economic crisis.

  <bullet> Are there steps the United States and international 
        community can take to help support Yemen's ability to protect 
        its energy infrastructure?

    Answer. USAID/Yemen does not have any energy or security projects 
in its portfolio. This question has been referred to the Department of 
State.
                                 ______
                                 

 Responses of Deputy Assistant Secretary Janet Sanderson to Questions 
                   Submitted by Senator John F. Kerry

    Question. Sanaa could become the first capital city in the world to 
run out of water. Some analysts have said that much of the violence and 
instability in Yemen is related to water shortages. How is the United 
States, in conjunction with the international community, addressing 
this growing need in a sustainable way?

    Answer. The violence and instability in Yemen emanates in part from 
political, grassroots sentiments fostered by the Arab Spring. The lack 
of a political solution has exacerbated a crisis which has destabilized 
Yemen's economy on a number of fronts. It has also hampered the 
government's ability to provide basic services and maintain 
infrastructure--including water networks.
    Availability of clean drinking water and management of remaining 
ground water resources are two key issues on which the international 
community has engaged the Yemeni Government, academics, 
agriculturalists, and communities as a way of encouraging open 
discussion and moving toward solutions. Donors assisted the Republic of 
Yemen Government in establishing its Water and Environment Ministry and 
in developing a National Water Sector Strategy and Investment Program; 
however, the Ministry's legal oversight is limited and the four 
government institutions charged with implementing the strategy need to 
be strengthened. USAID and others are working with the Yemeni 
authorities on environmental and water policy reforms and on public 
awareness campaigns to increase public engagement on the issues.
    At the subnational and community level, USAID is implementing 
activities to promote effective water management techniques for 
household and agricultural purposes, including: improving water 
harvesting techniques for rainwater; rehabilitating water storage/
distribution structures; training farmers on point source irrigation 
systems; promoting water-efficient crops; and demonstrating low-cost 
filtration systems, readily available in Yemen, to encourage water 
management and sanitation at the household level.
    Additional donor activity includes: (1) The World Bank is focusing 
on urban and rural measures to promote soil conservation, modern 
irrigation methods, and public awareness of water conservation; (2) 
Germany is assisting municipal water utilities to improve cost recovery 
and fees; (3) Japan is preparing to initiate rural water supply 
projects at 19 sites in five governorates; and (4) the Dutch funded 
urban and rural water, sanitation, and irrigation infrastructure 
projects and worked with the government to increase institutional 
capacity and promote water sector reforms.

    Question. How can the United States, while continuing to pursue a 
robust counterterrorism strategy and partnership, better demonstrate to 
the Yemeni people that United States-Yemeni cooperation extends beyond 
counterterrorism?

    Answer. In Yemen, we support a two-pronged approach that aims to 
strengthen the Government of Yemen's ability to promote security and 
minimize the threat from violent extremists, while addressing the 
drivers of instability including the deteriorating economic situation, 
deficiencies in government capacity to provide essential services to 
the Yemeni people, poor governance, and limited transparency. The 
Yemeni people face significant challenges on the security, governance, 
and economic fronts. In tackling these conditions, the United States 
continues to implement a broad approach by addressing longer term 
political, economic, and social challenges, which Al Qaeda in the 
Arabian Peninsula (AQAP) exploits to create a safe haven.
    The United States provides counterterrorism and security assistance 
to Yemen, but also provides humanitarian and development assistance 
directly to the Yemeni people. We take steps to increase the Government 
of Yemen's ability to provide services and be responsible to the needs 
of its people, and we support efforts by Yemen's vibrant civil society 
to hold its government accountable. We continue to emphasize our two-
pronged approach--helping the government confront the immediate 
security concern of al-Qaeda and mitigating the serious political, 
economic, and governance issues that the country faces over the long 
term--in bilateral and multilateral messaging on Yemen.

    Question. In light of the difficult operating environment in Yemen, 
and the fact that Embassy staff are on ordered departure, please 
describe any impediments to operating and disbursing U.S. assistance 
funding in the country. How is USAID adapting its program to a 
deteriorating security environment?

    Answer. In response to political turmoil and security challenges in 
Yemen, USAID is adapting its program in a number of ways. For example, 
USAID is increasing the number of quick impact projects and expanding 
geographic targets to meet the emerging relief and recovery needs in 
both urban and rural communities. Since public utilities, schools, 
hospitals, clinics, and other service providers are suffering from lack 
of supplies, fuel, and staff, USAID is providing assistance to help 
maintain much-needed social services in some of the highest priority, 
least accessible areas around the country.
    USAID is also responding to acute emergency requirements at the 
sites of large-scale protests in four cities by providing medical 
equipment and commodities to health facilities that are servicing those 
wounded in the protest violence. The number of cases served by mobile 
medical teams has increased due to temporary clinic closures; USAID 
continues to equip and support the operations of these teams despite 
the rising fuel and equipment costs.
    USAID recognizes that maintaining development and humanitarian 
assistance programs in Yemen is essential to ensuring that the U.S. 
Government continues to show commitment to the Yemeni people. USAID 
programs continue to operate throughout the country; however, project 
implementation has slowed due to security challenges, fuel shortages, 
power outages, evacuation of USG and implementing partner staff. While 
many implementing partner expatriates are returning, they continue to 
face challenges such as: (1) Access in some areas remains a persistent 
constraint to monitoring and responding to emerging needs; (2) the 
absence of government interlocutors and international organizations due 
to evacuations has impeded progress, particularly in rural areas; and 
(3) Sporadic availability of foreign currency has made payments for 
goods, services, and staff salaries difficult for implementing 
partners.

    Question. A May attack against an oil pipeline in the Marib 
province severely disrupted Yemen's oil flow for nearly 2 months, 
further exacerbating Yemen's economic crisis. Are there steps the 
United States and international community can take to help support 
Yemen's ability to protect its energy infrastructure?

    Answer. In Yemen, oil pipelines run above ground through rural, 
open areas often governed by tribal leaders. While the United States 
and others in the international community can advise the Yemeni 
Government on energy infrastructure protection, it is up to the Yemeni 
Government to ensure successful relations with the tribal leaders of 
the areas through which oil pipelines run. The United States and the 
international community will continue to advise the Yemeni Government 
of steps to improve critical infrastructure protection.
                                 ______
                                 

   Responses of Coordinator for Counter Terrorism Ambassador Daniel 
        Benjamin to Questions Submitted by Senator John F. Kerry

    Question. How can the United States, while continuing to pursue a 
robust counterterrorism strategy and partnership, better demonstrate to 
the Yemeni people that United States-Yemeni cooperation extends beyond 
counterterrorism?

    Answer. In Yemen, we support a two-pronged approach that aims to 
strengthen the Government of Yemen's ability to promote security and 
minimize the threat from violent extremists, while addressing the 
drivers of instability. Those drivers include the deteriorating 
economic situation, deficiencies in government capacity to provide 
essential services to the Yemeni people, poor governance, and limited 
transparency. The Yemeni Government and people face significant 
challenges on the security, governance, and economic fronts. In 
tackling these conditions, the United States continues to implement 
policies and programs to address longer term political, economic, and 
social challenges, which Al Qaeda in the Arabian Peninsula (AQAP) 
exploits to create a safe haven.
    The United States provides counterterrorism and security assistance 
to Yemen, but also provides humanitarian and development assistance 
directly to the Yemeni people. We take steps to increase the Government 
of Yemen's ability to provide services and to be responsible to the 
needs of its people, and we support efforts by Yemen's vibrant civil 
society to hold its government accountable. We continue to emphasize 
our two-pronged approach--helping the government confront the immediate 
security concern of al-Qaeda and mitigating the serious political, 
economic, and governance issues that the country faces over the long 
term--in bilateral and multilateral messaging on Yemen.

    Question. A May attack against an oil pipeline in the Marib 
province severely disrupted Yemen's oil flow for nearly 2 months, 
further exacerbating Yemen's economic crisis. Are there steps the 
United States and international community can take to help support 
Yemen's ability to protect its energy infrastructure?

    Answer. In Yemen, oil pipelines run above ground through rural, 
open areas often governed by tribal leaders. While the United States 
and others in the international community can advise the Yemeni 
Government on energy infrastructure protection, the Yemeni Government 
must work to ensure successful relations with the tribal leaders of the 
areas through which oil pipelines run. The United States and the 
international community will continue to advise the Yemeni Government 
of possible steps to improve critical infrastructure protection.

    Question. You noted in your testimony that ``no FY 2011 1206 
funding has been programmed for Yemen because of the security situation 
and political unrest.'' How has this delay in 1206 programming affected 
Yemen's ability, and the ability of the Special Operations Forces in 
particular, to combat Al Qaeda in the Arabian Peninsula? How does it 
affect the bilateral security relationship?

    Answer. The delay in delivery and programming of 1206-funded 
equipment for Yemen has not so far affected the Yemeni Government's 
ability to respond to terrorist threats. Recommendations for FY 2011 
1206 programs required long lead-times and the equipment would not have 
been delivered for over 12 months. We continue regular communication 
and cooperation with our counterparts in the Yemeni Government 
regarding their counterterrorism operations, and continue to build the 
relationship.

    Question. What is the relationship between the Ansar al-Shariah 
group, which has reportedly seized territory in Abyan province, and Al 
Qaeda in the Arabian Peninsula?

    Answer. Ansar al-Shariah is the name that Al Qaeda in the Arabian 
Peninsula (AQAP) is using in Yemen's Abyan Governorate. AQAP uses the 
name Ansar al-Shariah most likely in attempt to better relate to the 
local population and divert attention from its al-Qaeda connection.
                                 ______
                                 

 Responses of Deputy Assistant Secretary Janet Sanderson to Questions 
                  Submitted by Senator James E. Risch

    Question. Stepping back from the immediate security challenges and 
threats, what are the strategic objectives of the United States in 
Yemen? And given the deteriorating security situation and its impact on 
U.S. ability to conduct development outreach and CT training programs. 
What tools are at U.S. disposal to pursue these strategic objectives?

    Answer. In Yemen, we are working to strengthen the Government of 
Yemen's ability to promote security and minimize the threat from 
violent extremists, while addressing the drivers of instability 
including the deteriorating economic situation, deficiencies in 
government capacity to provide essential services to the Yemeni people, 
poor governance, and limited transparency. The Yemeni people face 
significant challenges on the security, governance, and economic 
fronts. In tackling these conditions, the United States continues to 
provide a range of assistance in the context of quiet diplomacy and 
international partnership to address these long-term objectives.

    Question. What could the United States be doing to better prepare 
for a prolonged period of unrest in Yemen?

    Answer. We continue to advocate for peaceful dialogue as the best 
solution to the political crisis in Yemen. Genuine participation by all 
sides, including youth and civil society, in an open and transparent 
process that addresses the legitimate concerns of the Yemeni people, 
including their political and economic aspirations, will assure the 
success of political transition. We will continue to work with our 
international partners to secure an agreement that is acceptable to 
both the government and the opposition.
    In conjunction with any political solution, there must also be 
wide-ranging international engagement to help the Yemeni government 
solve its looming economic crisis in order to prevent a humanitarian 
catastrophe and ensure long-term economic and social stability. The 
United States has focused on promoting transparency and political, 
economic, and governance reform as well as our counterterrorism 
relationship. We have consistently engaged with both President Saleh 
and members of the formal and informal opposition and will continue to 
do so in an effort to promote dialogue and a peaceful resolution of 
conflict.
                                 ______
                                 

   Responses of Deputy Assistant Administrator Christa Capozzola to 
          Questions Submitted by Senator Robert P. Casey, Jr.

    Question. During his July 10 visit to Saudi Arabia, White House 
Counterterrorism Advisor John Brennan urged President Saleh to 
``fulfill expeditiously'' his pledge to sign the Gulf Cooperation 
Council (GCC) agreement as the best way to ensure continued U.S. 
assistance.

  <bullet> Should the U.S. condition future aid to Yemen based on 
        democratic reform?

    Answer. Underdevelopment in Yemen has resulted in widespread 
poverty, chronic food insecurity, inadequate health care, and limited 
water supplies. Since early February 2011, clashes between Republic of 
Yemen Government military forces, antigovernment demonstrators, 
progovernment demonstrators, rival tribes, and militant and terrorist 
groups have exacerbated these conditions. Political unrest has 
heightened concerns regarding security, access, and the government's 
ability to provide basic services.
    U.S. Government is committed to working closely with the Yemeni 
people as well as with Yemen's neighbors and the international 
community to bring peace and stability to a country that has 
unfortunately experienced too much bloodshed and hardship over the past 
several years. The political transition is critical to resolving the 
many challenges to Yemen's security, including the humanitarian crisis, 
economic difficulties, and the threat from Al Qaeda in the Arabian 
Peninsula.
    USAID/Yemen strategy is an integral part of the larger, National 
Security Council-coordinated interagency strategy for Yemen. 
Programming addresses the drivers of instability and responds to the 
articulated needs and frustrations of vulnerable communities. These 
communities are in the governorates most susceptible to extremist 
ideologies and prone to violent means of resolving grievances. Making 
aid, particularly humanitarian assistance, contingent on democratic 
reform could further frustrate these vulnerable, already marginalized 
populations. Prior to the political crisis we were working through the 
international Friends of Yemen forum and bilaterally to help the 
Yemenis identify economic, governance, and rule of law reforms that 
could be implemented to help Yemen address its many challenges. We will 
resume those efforts once the political environment permits but should 
not restrict aid to progress in democratic reform when we are 
simultaneously working on reforms in so many other areas.
    Despite security challenges and political turmoil, USAID continues 
to provide assistance and respond to evolving conditions in Yemen. 
USAID has already committed over $40 million in FY11 to respond to the 
increasing humanitarian needs and is increasing the number of rapid 
response projects to meet emerging relief and recovery needs in both 
urban and rural communities.

    Question. Outside of conditioning assistance, what steps will a 
transitional government need to take to satisfy the American tax 
payer's concerns that foreign assistance is spent wisely?

    Answer. Yemen faces very serious political, economic, and security 
challenges. The United States has been working closely with Yemeni 
officials and opposition elements, GCC partners, and other 
international actors to bring an end to the political turmoil and 
violence in Yemen. The United States supports the Yemeni people's 
aspirations for meaningful political reform, but it is up to the Yemeni 
people to decide what form political reform takes.
    As part of its procurement reform process through USAID Forward, 
our programming is designed to enhance partnership with the host 
country and achieve more effective results by increasing host country 
accountability for program outcomes.
    USAID will continue to counter corruption and to thoroughly vet all 
grant proposals and grant recipients to ensure that foreign assistance 
is spent wisely.

  <bullet> To prevent corruption, USAID does not provide cash 
        assistance in Yemen, and does not provide direct monetary 
        support to the Republic of Yemen Government. The majority of 
        our support is to communities, and is provided in the form of 
        in-kind assistance. Community engagement is an essential 
        element in countering corruption, as communities who have 
        bought in to the activities and see the benefits of them are 
        less likely to allow those activities to fall victim to corrupt 
        practices and fail.
  <bullet> USAID has standard provisions in all its contracting 
        instruments regarding vetting. We have reviewed those 
        provisions with all our implementing partners in Yemen, and 
        partners have processes in place to vet recipients of grants 
        through all our programs.

                                  <all>

</pre></body></html>
